<html>
<title> - S. 817, S. 818, S. 1436, S. 1761, S. 1822, S. 1986, AND H.R. 387</title>
<body><pre>[Senate Hearing 114-260]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 114-260

    S. 817, S. 818, S. 1436, S. 1761, S. 1822, S. 1986, AND H.R. 387

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                            U.S. GOVERNMENT PUBLISHING OFFICE
20-036 PDF                        WASHINGTON : 2016

________________________________________________________________________________________                           
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>  
       


                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                           
                           
                           
                
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 7, 2015..................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Lankford....................................    27
Statement of Senator Tester......................................     2

                               Witnesses

Casamassa, Glen, Associate Deputy Chief, National Forest System, 
  U.S. Forest Service, U.S. Department of Agriculture............     7
    Prepared statement...........................................     8
Daboda, Hon. Darren, Chairman, Moapa Band of Paiute Indians......    17
    Prepared statement...........................................    19
Martin, Hon. Robert, Chairman, Morongo Band of Mission Indians...    14
    Prepared statement...........................................    16
Melendez, Hon. Arlan, Chairman, Reno-Sparks Indian Colony........    10
    Prepared statement...........................................    11
Smith, Michael, Deputy Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................     3
    Prepared statement...........................................     4

                                Appendix

Day, Hon. Kevin, Chairman, Tuolumne Band of Me-Wuk Indians, 
  prepared statement.............................................    40
DeSoto, Hon. Randi, Chairwoman, Summit Lake Paiute Tribal 
  Council, prepared statement....................................    39
Dixon, Hon. Stacy, Chairman, Tribal Business Council, Susanville 
  Indian Rancheria, prepared statement...........................    65
Hawley, Hon. Vinton, Chairman, Pyramid Lake Paiute Tribal 
  Council, prepared statement....................................    37
Ike, Leona A., Member of the Confederated Tribes of Warm Springs, 
  prepared statement.............................................    71
Leno, Hon. Reyn, Tribal Council Chair, Confederated Tribes of the 
  Grand Ronde Community of Oregon, prepared statement............    45
Manning, Hon. Lindsey, Chairman, Shoshone-Paiute Tribes of the 
  Duck Valley Indian Reservation, prepared statement.............    57
Pigsley, Hon. Delores, Chairman, Confederated Tribes of Siletz 
  Indians of Oregon, prepared statement..........................    58
Reid, Hon. Harry, U.S. Senator from Nevada, prepared statement...    35
Response to written questions submitted by Hon. Jon Tester to 
  Michael Smith..................................................    72
Thompson, Hon. Perline, Chairman, Duckwater Shoshone Tribe, 
  prepared statement.............................................    36

 
    S. 817, S. 818, S. 1436, S. 1761, S. 1822, S. 1986, AND H.R. 387

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:52 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today the Committee will examine seven different bills. All 
the bills being considered today pertain to taking land into 
trust for a federally-recognized tribe.
    On March 1, 2015, Senators Wyden and Merkley introduced two 
bills, S. 817 and S. 818. S. 817 would allow the Secretary of 
the Interior, when considering trust land acquisitions for the 
Siletz tribe, to treat the applications as on-reservation 
acquisitions.
    S. 818 would allow the Secretary of the Interior, when 
considering trust land acquisitions for the Grand Ronde tribe, 
to treat the applications as on-reservation acquisitions.
    Senator Reid and Senator Heller introduced S. 1436 on May 
21 of this year. The bill is similar to past bills and would 
place 77,177 acres of land in Nevada into trust for six Nevada 
tribes to allow the tribes to carry out landscape restoration 
and fuel reduction activities.
    Senators Boxer and Feinstein introduced S. 1761 on July 14, 
2015. There is a companion bill, H.R. 2212, which was 
introduced by Representative LaMalfa on May 1.
    The bill transfers approximately 301 acres located in 
Lassen County, California from the Bureau of Land Management to 
the Department of the Interior to be placed into trust for the 
Susanville Rancheria Tribe for cultural purposes and a sports 
recreation center.
    Senators Boxer and Feinstein introduced S. 1822 on July 21, 
2015. This bill transfers approximately 80 acres from the 
Forest Service to the Department of the Interior to be placed 
into trust for the Tuolumne Band of Me-Wuk Indians in order to 
carry out a fuel reduction plan.
    Senator Reid introduced S. 1986 on August 8, 2015. The bill 
transfer 25,977 acres from the Bureau of Land Management to the 
Department of the Interior to place the land in trust for the 
Moapa Band of Paiutes.
    Lastly, we will consider H.R. 387, which was introduced on 
January 14, 2015 by Representative Ruiz and introduced in the 
House. The bill is a multi-parcel land transfer between the 
Morongo Band of Mission Indians, a private land owner, a city, 
and a county.
    Before we move to the witnesses, I would like to ask Vice 
Chairman Tester if he has an opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, Mr. Chairman. I want to thank you for 
holding this legislative hearing on a number of tribal lands 
bills.
    I want to welcome the witnesses who are here to testify 
today.
    We all know how important land is to tribal communities. 
Through the seven lands bills we will hear about today, tribes 
will be better able to develop housing for their tribal 
members, create economic development opportunities for the 
communities, protect cultural and traditional uses for future 
generations or simply preserve lands within tribal communities.
    For too many years, the United States promoted policies 
designed to take lands away from Indians, even while making 
promises to tribes that they would have a reservation for their 
community in perpetuity.
    For the most part, these policies have been reversed. I 
want to commend the Committee members, the sponsors of today's 
bills and the Federal agencies committed to restoring homelands 
and recognizing tribal reservations and boundaries.
    Decades of policies going back and forth on restoring 
tribal lands have led to a checkerboard of land ownership by 
tribes, individual Indians and non-Indians. This complicates 
the delivery of all kinds of services in tribal communities 
from law enforcement and road maintenance to utilities and 
water rights.
    Tribal land bills often serve to correct these issues by 
consolidating tribal lands into contiguous parcels to allow for 
better development and growth of tribal communities.
    I would also like to thank the tribes themselves for their 
work on restoring their homelands. Often tribes are forced to 
buy back land that was originally taken from them or to go 
through a lengthy and expensive process of getting bills 
through Congress to recognize their reservation or add 
additional lands.
    After the hearing today, I hope we can quickly move these 
bills. Each of these bills by themselves may be small but they 
have the highest importance to the tribes they affect.
    I look forward to hearing from the witnesses today, both 
from the agencies for their testimony and support for these 
bills and from tribal leaders who have come to Washington to 
discuss how their bills will impact and benefit their 
communities.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Tester.
    We will now hear from our witnesses. First to testify is 
Mr. Michael Smith, Deputy Director, Bureau of Indian Affairs, 
U.S. Department of the Interior, Washington, D.C.
    Mr. Smith, please proceed.

         STATEMENT OF MICHAEL SMITH, DEPUTY DIRECTOR, 
       BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Smith. Good afternoon, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee.
    My name is Michael R. Smith. I am the Deputy Director for 
the Bureau of Indian Affairs at the Department of the Interior.
    Thank you for the opportunity to present testimony for the 
Department on these bills related to BIA and the Bureau of Land 
Management. All of these are for placing lands into trust for 
tribes.
    Taking land into trust is one of the most important 
functions that the Department undertakes on behalf of Indian 
tribes. Homelands are essential to the health, safety and 
welfare of the tribal governments. Thus, the Department has 
made restoration of tribal homelands a priority.
    The Department supports H.R. 387, the Economic Development 
through Tribal Land Exchange Act. The Department recognizes 
that the land exchanges contemplated in this bill would reduce 
so-called checker boarding of Indian land and produce more 
consolidated land holdings for the tribe.
    The tribe and the city of Banning, California are to be 
congratulated for working out an exchange that benefits both 
the tribe and local government.
    S. 818, a bill to amend the Grand Ronde Reservation Act to 
make technical corrections and for other purposes, amends an 
Act to establish a reservation with the Confederated Tribes of 
the Grand Ronde community of Oregon and to authorize the 
Secretary of the Interior to place in trust approximately 1,038 
acres of real property located within the boundaries of the 
original 1857 reservation of the Confederated Tribes of the 
Grand Ronde community if the real property is conveyed or 
otherwise transferred to the United States by or on behalf of 
the tribe.
    Furthermore, the bill provides that the Secretary is to 
treat all applications to take land into trust within the 
boundaries of the original 1857 reservation as on-reservation 
trust acquisition and that all real property taken into trust 
within those boundaries after September 9, 1988 are to be 
considered part of the tribe's reservation.
    S. 817 would amend the Siletz Tribe Indian Restoration Act, 
25 U.S.C., Section 711(e), to authorize the Secretary of the 
Interior to place land into trust for the Siletz Tribe. The 
lands lie within the original 1855 Siletz Coast Reservation and 
are located in the counties of Benton, Douglas, Lane, Lincoln, 
Tillamook and Yamhill, all located within the State of Oregon.
    S. 817 will also provide that such land would be considered 
and evaluated as on-reservation acquisition under 25 CFR, 
Section 151.10 and become part of the tribe's reservation. The 
bill does not make the original Siletz Reservation into a 
reservation for the Siletz Tribe or create tribal jurisdiction 
over the original Siletz Reservation.
    Additionally, S. 817 clarifies that nothing in this Act or 
amendment made by this Act shall prioritize for any purpose the 
claims of any federally-recognized Indian tribe over the claims 
of any other federally-recognized Indian tribe. The Department 
supports S. 817.
    S. 1986, the Moapa Band of Paiute Indians Land Conveyance 
Act, declares that approximately 26,000 acres of public land in 
southern Nevada shall be held in trust for the benefit of the 
Moapa Band of Paiutes.
    The bill also declares that approximately 90 acres of land 
currently held in fee by the tribe shall be held in trust as 
part of the reservation of the tribe.
    The Department supports S. 1986 and would like to work with 
the sponsor and the Committee on modifications concerning 
energy transmission corridors, recreational opportunities and 
protection of sensitive species.
    S. 1436, the Nevada Native Nations Land Act, would be 
revised for the Secretary of the Interior to hold in trust for 
the benefit of a number of federally-recognized tribes over 
71,000 acres of federal lands in Nevada managed by the Bureau 
of Land Management and the United States Forest Service.
    The Department of the Interior welcomes opportunities to 
work with Congress on lands to be held in trust. We appreciate 
efforts to address some of the BLM's concerns with previous 
versions of the bill and we generally support S. 1436 if 
amended to address a few concerns explained in our written 
testimony.
    The Department knows that some of the parcels identified in 
this legislation contain lands that are general or priority 
habitat management areas for the Greater Sage-Grouse which are 
identified for retention in the final Greater Sage-Grouse Plan 
for Nevada and northeastern California.
    Accordingly, we would like to work with the sponsor and the 
Committee on boundary modifications to avoid Greater Sage-
Grouse habitat on language that would ensure appropriate 
conservation measures in the Greater Sage-Grouse.
    S. 1761 directs that approximately 300 acres of BLM-managed 
land located in Lassen County, California be held in trust for 
the benefit of the Susanville Indian Rancheria. The Department 
supports S. 1761 and would like to work with the sponsor 
concerning the treatment of rights-of-way and improvements 
under the bill as well as minor technical corrections.
    Thank you for the opportunity to present the Department's 
views on these bills. I will be happy to answer any questions 
the Committee may have.
    [The prepared statement of Mr. Smith follows:]

Prepared Statement of Michael Smith, Deputy Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
                                H.R. 387
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, my name is Michael Smith and I am the Deputy Director for 
the Bureau of Indian Affairs at the Department of the Interior 
(Department). Thank you for the opportunity to present testimony for 
the Department on H.R. 387, the ``Economic Development Through Tribal 
Land Exchange Act.'' The Department supports H.R. 387.
    The Morongo Band of Mission Indians (the Tribe), located 
approximately 20 miles west of Palm Springs, CA, along with the City of 
Banning (the City) and Lloyd L. Fields (Mr. Fields), a private property 
owner who resides in California, have asked Congress to enact 
legislation providing for the exchange of certain lands within or 
adjacent to the Morongo Reservation (1) to promote the consolidation of 
the Tribe's reservation lands, (2) to resolve a land-use dispute among 
Mr. Fields, the City and the Tribe, and (3) to facilitate commercial 
development on lands adjacent to the Tribe's reservation that will be 
beneficial for the City and the Tribe, as well as Mr. Fields. A map 
depicting the property to be exchanged is referenced in the bill. The 
parcels are identified as Parcels A, B, C and D.
Background
    Among the parcels of land the United States currently holds in 
trust on behalf of the Tribe is a parcel of 41.15 acres (Parcel B), a 
portion of which is adjacent to lands outside the Tribe's reservation 
that are owned by Mr. Fields. This parcel has no currently existing 
access to any public road and has little economic value to the Tribe. 
In 1995, through transactions with other private non-Indian 
landholders, Mr. Fields acquired a similarly sized parcel (Parcel A) 
that at the time also was outside the Tribe's reservation. Parcel A has 
since become encircled by lands acquired by the Tribe and now held in 
trust for the Tribe by the United States as part of the Tribe's 
residential area, largely precluding Mr. Fields from commercial 
development of Parcel A. In an effort to relieve the City from the 
continued maintenance and upkeep of certain lands which it owns, the 
City is interested in conveying to the Tribe approximately 1.21 acres 
of land (Parcel C) that is within the Tribe's reservation and that is 
used for a roadway, in return the Tribe would grant the City an 
easement over other tribal trust lands (Parcel D) adjacent to Parcel B, 
which the City intends to use as a roadway and for electrical, sewer, 
water, and related utility lines in order to enable future commercial 
development that the City believes will be beneficial to the City.
H.R. 387
    First, H.R. 387 authorizes and directs the Secretary of the 
Interior (Secretary) to accept title to Parcel A to be held in trust 
for the Tribe. Second, H.R. 387 authorizes and directs the Secretary to 
convey Parcel B to Mr. Fields, thus removing Parcel B from trust 
status. Third, the bill authorizes and directs the Secretary to grant 
an easement to the City for use of Parcel D as a roadway and for 
electrical, sewer, water, and related utility lines owned by the City. 
All three of these conveyances would be done simultaneously. Fourth, 
H.R. 387 directs the Secretary to accept title to Parcel C to be held 
in trust for the Tribe after the City has vacated its interest in 
Parcel C pursuant to applicable state law.
Anticipated Use of Lands
    The lands the Tribe is requesting be placed into trust on its 
behalf will assist the Tribe with its land consolidation efforts. The 
Tribe already has a hotel and casino in a different section of its 
Reservation that the Tribe has designated for entertainment and 
hospitality uses; thus, the Tribe is unlikely to use Parcel A for any 
commercial use other than grazing or other ranch or farming related 
activities. Parcel C will continue to be used by the Tribe as a roadway 
providing access to the Tribe's residential area. We would be happy to 
work with the Subcommittee to add legal descriptions of the parcels 
into the bill.
    The Department recognizes that the land exchanges contemplated in 
this bill would reduce so-called checkerboarding of Indian land and 
produce more consolidated land holdings for the Tribe. The Tribe and 
the City of Banning are to be congratulated for working out an exchange 
that benefits both the Tribe and local government. The Department 
supports this bill.

      S. 817, A BILL TO PROVIDE FOR THE ADDITION OF CERTAIN REAL 
 PROPERTY TO THE RESERVATION OF THE SILETZ TRIBE IN THE STATE OF OREGON
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, my name is Michael Smith and I am the Deputy Director for 
the Bureau of Indian Affairs at the Department of the Interior. Thank 
you for the opportunity to present the Department of the Interior's 
(Department) views on S. 817, a bill to provide for the addition of 
certain real property to the reservation of the Siletz Tribe.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal governments. 
Thus, this Administration has made the restoration of tribal homelands 
a priority. This Administration is committed to the restoration of 
tribal homelands, through the Department's acquisition of lands in 
trust for tribes, where appropriate. While the Department acknowledges 
that tribes near the Siletz Tribe oppose S. 817, the Department 
supports S. 817.
    S. 817 would amend the Siletz Tribe Indian Restoration Act, 25 
U.S.C.  711e, to authorize the Secretary of the Interior to place land 
into trust for the Siletz Tribe. The lands lie within the original 1855 
Siletz Coast Reservation and are located in the counties of Benton, 
Douglas, Lane, Lincoln, Tillamook, and Yamhill, which are all located 
within the State of Oregon. S. 817 would also provide that such land 
would be considered and evaluated as an on-reservation acquisition 
under 25 C.F.R.  151.10 and become part of the Tribe's reservation. 
The bill does not make the original Siletz Reservation into a 
reservation for the Siletz Tribe or create tribal jurisdiction over the 
original Siletz Reservation. Additionally, S. 817 clarifies that 
nothing in this Act or amendment made by this Act shall prioritize for 
any purpose the claims of any federally-recognized Indian tribe over 
the claims of any other federally-recognized Indian tribe.
    Thank you for the opportunity to present the Department's views on 
this legislation. I will be happy to answer any questions you may have.
            S. 818, TO AMEND THE GRAND RONDE RESERVATION ACT
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, my name is Michael Smith and I am the Deputy Director of the 
Bureau of Indian Affairs at the Department of the Interior 
(Department). Thank you for the opportunity to present the Department's 
views on S. 818, a bill to amend the Grand Ronde Reservation Act to 
make technical corrections, and for other purposes. The Department 
supports S. 818.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal governments. 
Thus, the Department has made the restoration of tribal homelands a 
priority.
    S. 818 amends an Act to establish a reservation for the 
Confederated Tribes of the Grand Ronde Community of Oregon, Pub. L. No. 
100-425 (Sept. 9, 1988), to authorize the Secretary of the Interior to 
place in trust approximately 1,038 acres of real property located 
within the boundaries of the original 1857 reservation of the 
Confederated Tribes of the Grand Ronde Community of Oregon if the real 
property is conveyed or otherwise transferred to the United States by 
or on behalf of the Tribe. Furthermore, the bill provides that the 
Secretary is to treat all applications to take land into trust within 
the boundaries of the original 1857 reservation as an on-reservation 
trust acquisition, and that all real property taken into trust within 
those boundaries after September 9, 1988, are to be considered part of 
the Tribe's reservation.
    Again, the Department supports S. 818. Thank you for the 
opportunity to present testimony on S. 818.
    This concludes my prepared statement. I will be happy to answer any 
questions the Committee may have.
    Attachment
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Thank you, Mr. Smith.
    Next, we will hear from Mr. Glen Casamassa, Associate 
Deputy Chief, National Forest System, U.S. Forest Service, 
Washington, D.C.

 STATEMENT OF GLEN CASAMASSA, ASSOCIATE DEPUTY CHIEF, NATIONAL 
    FOREST SYSTEM, U.S. FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Casamassa. Chairman Barrasso and Vice Chairman Tester, 
thank you for the opportunity to testify on behalf of the 
United States Department of Agriculture, U.S. Forest Service.
    I am Glen Casamassa, Associate Deputy Chief of the National 
Forest System. There are two bills that I have been asked to 
address. I have provided written testimony for the record.
    S. 1436, the Nevada Native Nations Land Act, directs the 
conveyance of approximately 82 acres of land administered by 
the Forest Service to be held in trust for the Shoshone Paiute 
Tribes of the Duck Valley Indian Reservation.
    The parcel is located within the Humboldt-Toyaibe National 
Forest. This 82-acre Mountain City Ranger Station 
Administrative Site is within a larger 750-acre admin and 
recreation site.
    The Department supports the bill. We have several 
recommendations for your consideration that we would like to 
work with the Committee and sponsor to address. We recommend 
the bill address the Forest Service continued need to use roads 
located on the parcel for administrative purposes.
    S. 1822, a bill to take certain Federal land located in 
Tuolumne County, California into trust for the benefit of the 
Tuolumne Band of Me-Wuk Indians, would transfer approximately 
80 acres of National Forest System lands administered by the 
Forest Service located within the boundaries of the Stanislaus 
National Forest to the Bureau of Indian Affairs to be held in 
trust by the United States for the benefit of the Tuolumne Band 
of Me-Wuk Indians.
    The two National Forest System parcels are surrounded by 
private property with no legal access for the Forest Service. 
The private property parcels are the Murphy Ranch owned by the 
Tuolumne Band of Me-Wuk Indians and the Edward Ingalls Trust. 
Mr. Craig Ingalls has written a letter on behalf of the Trust 
in support of the proposed land transfer.
    The Department supports the positive and cooperative 
relationship between the Forest Service and the Stanislaus 
National Forest and the Tuolumne Band of Me-Wuk Indians and 
their desire to manage these lands for fuels reduction and 
other conservation purposes.
    The Department does not oppose the land transfer to the 
Bureau of Indian Affairs. However, we would like to work with 
the Committee in correcting the parcels' legal description 
described and based in the legislation.
    This concludes my remarks. I would be happy to answer any 
questions.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Casamassa follows:]

Prepared Statement of Glen Casamassa, Associate Deputy Chief, National 
   Forest System, U.S. Forest Service, U.S. Department of Agriculture

              S. 1436, the Nevada Native Nations Land Act

    Mr. Chairman and members of the Committee, thank you for 
the opportunity to present the views of the U.S. Department of 
Agriculture (USDA) regarding S.1436, the Nevada Native Nations 
Land Act. To Senator Reid, Senator Heller and other members of 
the Nevada delegation, we wish to thank you for your work on 
this bill.
    The Department supports the bill as it applies to lands 
managed by the Forest Service. We defer to the Department of 
the Interior for matters concerning land administered by the 
Bureau of Land Management.
    Section 3(b) of the bill would transfer approximately 82 
acres of land administered by the Forest Service to be held in 
trust by the United States for the benefit of the Shoshone 
Paiute Tribes of the Duck Valley Indian Reservation. The parcel 
is located within the Humboldt-Toyaibe National Forest.
    The 82-acre Mountain City Ranger Station Administrative 
Site identified for conveyance is within a larger 750 acre 
withdrawal established in 1959 by Public Land Order (PLO) 1796, 
which reserved the withdrawn lands for numerous administrative 
and recreation sites. The Mountain City Ranger Station 
Administrative Site contains a hay shed and corral constructed 
in 1940 on the east side of the highway; a water well, water 
and wastewater systems, and a wastewater treatment lagoon, two 
houses, the oldest originally being constructed in 1958 are 
still on the subject site. Later buildings constructed on the 
site that are still there include a duplex, one modular single-
family home, a double-wide barrack, a double-wide single-family 
home with detached garage, and a single-wide mobile home. A 
second water well was constructed in 1992.
    A total of 11 structures, including the 1940 hay shed, and 
two water wells are included in the proposed acquisition.
    We have several recommendations for your consideration that 
we would like to work with the Committee and sponsor to 
address. We recommend that the bill address the Forest 
Service's continued need to use roads located on the parcel for 
administrative purposes.
    We also recommend that the bill specify that all facilities 
and other infrastructure on the 82-acre parcel transfer to the 
Tribe.

   S. 1822, a bill to take certain Federal land located in Tuolumne 
County, California, into trust for the benefit of the Tuolumne Band of 
                             Me-Wuk Indians

    Chairman Barrasso, Ranking Member Tester and Members of the 
Committee, thank you for the opportunity to appear before you 
today to provide the U.S. Department of Agriculture's views 
regarding S. 1822, a bill to take certain Federal land located 
in Tuolumne County, California, into trust for the benefit of 
the Tuolumne Band of Me-Wuk Indians, and for other purposes.
    S. 1822 would transfer approximately 80 acres of National 
Forest System (NFS) lands administered by the U.S. Forest 
Service located within the boundaries of the Stanislaus 
National Forest to be held in trust by the United States for 
the benefit of the Tuolumne Band of Me-Wuk Indians.
    The Department does not oppose the transfer of this land to 
be held in trust for the benefit of the Tuolumne Band of Me-Wuk 
Indians. The two National Forest System parcels comprising the 
80 acres are surrounded by private property with no legal 
access for the Forest Service. The private properties 
surrounding the two parcels are the Murphy Ranch, owned by the 
Tuolumne Band of Me-Wuk Indians, and the Edward Ingalls Trust. 
Mr. Craig Ingalls has written a letter on behalf of the Trust 
in support of this proposed land transfer.
    A search of Forest records and a brief site visit indicate 
that there are no distinctive Forest uses or special resources 
connected to or located on these parcels. There are no special 
use authorizations associated with these parcels. There is, 
however, a grazing permit that covers these parcels. However, 
the forage on these allotments is minimal, and there is no 
range infrastructure on the properties. Discussions with the 
range permittee and the tribe related to future range use are 
taking place with the anticipation of reaching a workable 
solution for both parties.
    The Department supports the positive and cooperative 
relationship between the Forest Service on Stanislaus National 
Forest and the Tuolumne Band of Me-Wuk Indians and their desire 
to manage these lands for fuels reduction and other 
conservation purposes.
    The Department would like to work with the Committee to 
make one important technical correction to the legal 
description as described in the legislation. Please add to the 
legal description the base and meridian, Mt. Diablo Meridian. 
This is needed to distinguish between the Mt. Diablo, San 
Bernardino and Humboldt meridians.
    This concludes my remarks. I would be happy to answer any 
questions. Thank you for the opportunity to testify.

    The Chairman. Thank you very much. We appreciate your being 
here.
    Next, we will hear from the Honorable Arlan Melendez, 
Chairman of the Reno-Sparks Indian Colony of Reno, Nevada. 
Thank you for being with us.

STATEMENT OF HON. ARLAN MELENDEZ, CHAIRMAN, RENO-SPARKS INDIAN 
                             COLONY

    Mr. Melendez. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester and distinguished members of the Senate 
Committee on Indian Affairs.
    My name is Arlan Melendez. I have been the Chairman of the 
Reno-Sparks Indian Colony for the past 24 years.
    I am honored to be speaking today, not only for my tribe, 
but for the other tribes in this bill who comprise the Nevada 
Tribal Land Coalition. I would like to express our heartfelt 
thanks to Senators Reid and Heller for introducing the bill and 
to you, Chairman Barrasso and Vice Chairman Tester, for 
supporting the bill last year and agreeing to schedule today's 
hearing.
    The membership numbers of our tribes are growing. The 
current capacity of our current lands is very limited. With the 
exception of a few, the majority of tribes in Nevada have very 
small land bases. Some are so small they do not even show up on 
State maps. The comparison to large land bases of other tribes 
in many western States is dramatic.
    It is unrealistic that we can thrive, provide housing and 
encourage economic development on so little land. It is only by 
being able to expand and consolidate our land that our tribes 
and cultural practices can thrive.
    Each of our tribes has specific reasons for seeking to 
expand our lands. We are united in our need for better 
management and effective use of these lands. The other tribes 
may be submitting statements for the record but let me 
summarize their situations.
    On behalf of Chairman Smart of the Fort McDermitt Paiute 
Shoshone Tribe, the bill would transfer BLM land to resolve 
checkerboard land issues. This would address law enforcement 
and emergency personnel jurisdictional questions as well as 
enable housing development. Planned land use and development of 
natural resources will also ensure environmental biodiversity 
and ensure better public health and safety.
    On behalf of Chairman Manning of the Shoshone Paiute Tribe 
of Duck Valley Reservation, the bill would transfer a small 
parcel of Forest Service land, a longstanding goal.
    When the Forest Service relocated its district 
headquarters, housing units were abandoned. The tribes would 
like to renovate these units to address chronic housing 
shortages and to help recruit medical professionals, law 
enforcement and conservation personnel.
    On behalf of Chairman Desoto of the Summit Lake Paiute 
Tribe, the bill would accomplish a long sought transfer of BLM 
land for protection and management of Summit Lake's natural 
resources and fish population and unify the reservation.
    Reservation lands surround the lake except in one area. 
Summit Lake is the home of the Lahontan Cutthroat Trout which 
was integral to the tribe's cultural and vital food source. The 
transfer will allow for improved management and trout habitat 
restoration.
    On behalf of Chairman Holley of the Pyramid Lake Paiute 
Tribe, the bill would transfer BLM land to fully incorporate 
the watershed of the Pyramid Lake so the tribe could better 
manage its natural resources and protect Pyramid Lake and its 
fish population thereby achieving cultural, economic and 
environmental benefits.
    On behalf of Chairman Thompson of the Duckwater Shoshone 
Tribe, the bill would allow the tribe to utilize added lands 
for economic development and community growth. The additional 
lands will allow the tribe to expand agricultural operations, 
plan for renewable energy projects, additional housing and 
facility development and protection of cultural and spiritual 
sites as well as wildlife.
    The tribe's plan for the lands are spiritual, cultural, 
natural resource management and economic heritage with a goal 
of self sufficiency.
    For my tribe, the Reno-Sparks Indian Colony, the bill would 
transfer BLM land because the current capacity of our 
reservation is strained as we need additional land for housing, 
cultural preservation and development.
    The Colony members were residing on just a small 28-acre 
reservation in Reno. In 1986, due to overcrowding, then-Nevada 
Congresswoman Barbara Vucanovich assisted the tribe in 
acquiring a parcel of land in Hungry Valley near Reno. She said 
if we needed more land in the future, we should come back and 
ask for it.
    We have made the best use of this limited parcel. We have 
constructed housing, a water system with production wells and 
other facilities such as a community center. We have purchased 
mining claims within the area proposed to be transferred by S. 
1436 and the wells serving Hungry Valley community are off-
reservation but also within the same proposed transfer.
    In closing, the BLM has also told us that they simply do 
not have enough staff to cover Hungry Valley. Our tribes are 
fully capable of being effective stewards of the land 
identified in S. 1436.
    I would like to thank you for the opportunity to testify. I 
would be happy to answer any questions you have.
    [The prepared statement of Mr. Melendez follows:]

Prepared Statement of Hon. Arlan Melendez, Chairman, Reno-Sparks Indian 
                                 Colony
    Chairman Barrasso, Vice Chairman Tester and distinguished Members 
of the Committee on Indian Affairs. I am pleased to submit this 
testimony in support of S. 1436, the Nevada Native Nations Land Act, 
legislation introduced by Nevada Senators Harry Reid and Dean Heller. 
We are also pleased that identical legislation (H.R. 2733), has been 
introduced in the House by Congressmen Mark Amodei and Cresent Hardy of 
Nevada. The House Natural Resources Subcommittee on Indian, Insular and 
Alaska Native Affairs held a hearing on H.R. 2733 on July 15, 2015, at 
which I testified.
    Thank you for inviting me to testify on S. 1436 and for considering 
our views. I have been acting as the leader of the Nevada Tribal Lands 
Coalition, which consists of the following tribes:

        Fort McDermitt Paiute and Shoshone Tribe
        Shoshone Paiute Tribes of Duck Valley
        Summit Lake Paiute Tribe
        Pyramid Lake Paiute Tribe
        Duckwater Shoshone Tribe
        Reno-Sparks Indian Colony

    As I will be the only Nevada tribal leader testifying from this 
coalition, my oral testimony will describe the needs of each of the 
tribes requesting a land transfer and I am honored to speak on their 
behalf. Each of the other tribes will likely also be submitting a 
written statement for the record and their statements should be relied 
upon for the specifics of their pending land transfer requests. 
Therefore in this written testimony for the record my remarks are 
mostly specific to the Reno-Sparks Indian Colony's land expansion needs 
but I will include the following as a brief summary of each of the 
tribes' requests for the land transfer:
Fort McDermitt Paiute Shoshone Tribe
    The bill would transfer BLM land to resolve checkerboard lands 
issues. This would address law enforcement and emergency personnel 
jurisdictional questions, as well as enable housing development. 
Planned land use and development of natural resources will also ensure 
environmental biodiversity and ensure better public health and safety.
Shoshone Paiute Tribes of Duck Valley Reservation
    The bill would transfer a small parcel of Forest Service land, a 
longstanding goal. When the Forest Service relocated its District 
headquarters, housing units were abandoned. The tribes would like to 
renovate these units to address chronic housing shortages and to help 
recruit medical professionals, law enforcement and conservation 
personnel.
Summit Lake Paiute Tribe
    The bill would accomplish a long-sought transfer of BLM land for 
protection and management of Summit Lake's natural resources and fish 
population and to unify the reservation. Reservation lands surround the 
lake except in one area. Summit Lake is home to the Lahontan cutthroat 
trout, which was integral to the Tribe's culture and a vital food 
source. The transfer will allow for improved management and trout 
habitat restoration.
Pyramid Lake Paiute Tribe
    The bill would transfer BLM land to expand the reservation boundary 
to fully incorporate the watershed of Pyramid Lake. Other sections near 
the lake would be used for potential economic development and 
management efficiency.
Duckwater Shoshone Tribe
    The Duckwater Shoshone Tribe plans to utilize added lands for 
economic development and community growth. The additional lands will 
allow the Tribe to expand agricultural operations, plan for renewable 
energy projects, additional housing & facilities development, and 
protection of cultural and spiritual sites, as well as wildlife. The 
Tribe's plan for the lands incorporates our spiritual, cultural, 
natural resource management, and economic heritage with a goal of self-
sufficiency.
Common Themes Amongst Nevada Native Nations Land Act (S. 1436) Tribes
    Our tribes' membership numbers are growing and the carrying 
capacity of our current lands is very limited. It is only by being able 
to expand and consolidate our lands for housing, development, and 
preservation that our tribes and cultural practices can continue to 
thrive. Each tribe in S. 1436 has specific reasons for seeking to 
expand the lands of our reservations and we are united in our need for 
better management and more effective use of these lands. We are fully 
capable of assuming these responsibilities. With the exception of a 
small parcel owned by the Forest Service, the lands in question are 
presently owned by BLM so transferring title to a different Interior 
agency (BIA) is not going to, for instance, affect the tax base. In a 
number of instances, upon acquiring land, Indian tribes have been able 
to undertake economic activities that have generated jobs and benefited 
both reservation and off-reservation economies and helped create jobs.
    We ask that you examine almost any map of Indian reservations in 
this country and you will see that through historic quirks of fate, the 
majority of land bases of the tribes in Nevada, particularly when 
compared to the land bases of many other tribes, are so small as to 
border on being non-workable. There are numerous million plus acre 
reservations in Montana, North Dakota, South Dakota, Washington, Utah, 
Wyoming, Arizona and New Mexico and many more reservations that are 
hundreds of thousands of acres in size yet the majority of Paiute and 
Shoshone tribes of the Great Basin ended up with almost nothing. In 
many instances our existing homelands are so small they don't even show 
up on many state maps. S. 1436 would put to effective use by tribes 
lands that are underutilized and not being adequately managed.
Background on Reno-Sparks Indian Colony
    The historical context for how our current reservation came to be 
is as follows:
    In the 1880s, an urban Indian settlement made up of landless 
Indians from the regional Washoe, Shoshone and Paiute tribes started 
along the Truckee River next to the City of Reno. A land base of 20 
acres was purchased in 1917 by the Federal government to provide a 
permanent home for this urban settlement. The Colony population grew 
along with the City of Reno. In 1934, the Reno-Sparks Indian Colony 
(the RSIC) was established as a federally recognized Tribal government 
under the Indian Reorganization Act. By the mid-1980's, the City of 
Reno had grown to the point of engulfing the undersized lands of the 
RSIC. The land base of the Reno Colony, near downtown Reno, is just 28 
acres of densely packed homes. The majority of the land uses that 
surround the Colony today consist of industrial development, 
warehouses, freeways, and storage lots. With this legislation, our hope 
is to avoid a repeat of what we have experienced the last 100 years of 
encroachment of incompatible uses at our front door. Less than 3 
percent of the land base is designated as park and open space. The 
residential area is totally built out and could not accommodate another 
home.
    In 1986, pursuant to a bill introduced by former Representative 
Barbara Vucanovich (R-NV), Congress transferred three sections of land 
north of Reno from the Bureau of Land Management (BLM) to the RSIC (and 
to BIA to be held in trust) to address the need for additional 
community housing. Currently, this area, known as the Hungry Valley 
community, houses approximately half the RSIC's population. The Hungry 
Valley community is seven miles west of the Spanish Springs community 
and 17 miles north of the City of Reno. The RSIC has spent millions of 
dollars in public improvements and community development, for example 
building homes; water and sewer system; community buildings and 
construction of Eagle Canyon Road from Pyramid Lake Highway to the 
Hungry Valley community. We also created a tribal utility district to 
supply water and sanitary sewer service to residents. The water system 
includes production wells, water tanks and a water treatment facility. 
Our primary production wells are located over a mile away on BLM lands 
within the area requested in S. 1436. The community sewer system 
provides for the treatment of all wastewater. The Hungry Valley 
Community Center we built is the primary public facility serving 
residents, with a volunteer fire department, offices for Housing 
Department, Utility District, Head Start Program, a gym, and meeting 
rooms. When Congresswoman Vucanovich was successful in the passage of 
the bill (public law 99-389) establishing the Hungry Valley Reservation 
she told us that if at some point in the future we needed to supplement 
the Hungry Valley land, that we should make such a request of the 
Congress. Here we are today making such a request and greatly 
appreciative of Senator Reid, Senator Heller and Congressman Amodei's 
leadership and support on this matter.
Further Need for this Legislation to Benefit the Hungry Valley 
        Residential Community
    The Hungry Valley community is surrounded by BLM public lands to 
the west, north, and east. Directly to the south and southeast is an 
active open aggregate mining pit which conducts blasting on a regular 
basis. In 2000, a large scale clay mining operation with two open pits 
was proposed on BLM land directly adjacent to the Hungry Valley 
community. The mine was never put into operation. The Colony eventually 
purchased the 6,000 acres of mining claims and currently pays a $41,000 
annual maintenance fee to the BLM. The 6,000 acres of mining claims are 
totally located within the lands requested in S. 1436. Many adverse 
activities are routinely occurring (in some cases permitted by the BLM, 
in other cases in violation of BLM regulations) on the lands adjacent 
to our residents' homes in Hungry Valley including:

  <bullet> Unlimited off highway vehicle (OHV) recreation area.

  <bullet> Loud and disruptive motorcycle events.

  <bullet> Gun Shooting events & recreational shooting--with assault 
        weapons--near residential areas.

  <bullet> Illegal dumping.

  <bullet> Unauthorized creation of motorcycle race tracks.

  <bullet> Military practice operation with simulated explosive 
        devices. (Hopefully an activity that won't be repeated.)

    Initial target shooting involved rifles. More recently it has 
escalated to assault weapons including apparent efforts at cutting 
trees down by shooting streams of bullets via such high powered guns. 
These are not activities anyone would want to see in proximity to a 
residential area. There are hundreds of thousands of acres of lands in 
Nevada not adjacent to a residential community where such activities 
can readily take place.
Proposed Land Transfer from BLM to BIA
    The RSIC is proposing to acquire through a Congressional transfer 
approximately 13,434 acres from the BLM to the Bureau of Indian Affairs 
(BIA) in trust for the RSIC in order to better manage and preserve the 
cultural and natural resources at the Hungry Valley residential 
community. Both BLM and BIA are agencies of the Department of the 
Interior. These 13,434 acres represent 0.028 percent of the 47 million 
acres of BLM lands in Nevada, lands that were once the exclusive domain 
of Paiute, Washoe and Shoshone tribes of Nevada.
    The local BLM staff are overwhelmed and readily admit they cannot 
enforce their own regulations and ordinances in Hungry Valley. We 
believe that transferring this land to the BIA's jurisdiction to be 
held in trust for the RSIC is important for the citizens of our Tribe 
and for the surrounding communities. We are pleased to have the support 
of the Washoe County Commissioners who, on December 13, 2013, 
unanimously supported our BLM land transfer request.
    In addition to public safety concerns, there are important cultural 
reasons why Hungry Valley is of great significance to us. We seek to 
manage this land so as to ensure for future generations that the open 
natural landscape that provides essential spiritual and traditional 
cultural support for our people will continue to be accessible and be 
properly managed. It is the intention of the Tribe to preserve and 
manage these scenic, cultural and natural resources. In the past, the 
Hungry Valley region was a traditional link between Pyramid Lake and 
the Truckee Meadows. Many camps and cultural resources have been 
identified by past archaeological studies. Many elders and residents 
continue to use Hungry Valley for spiritual and traditional activities. 
Several prominent landscape features in the Hungry Valley area are used 
for traditional religious practices and are a source of medicinal 
plants.
    We are very proud of the many cooperative efforts we have entered 
into with the State of Nevada and with the governments that surround 
our downtown reservation as well as our existing Hungry Valley lands. 
We assure the Congress that this spirit of good will and cooperation 
will continue and that all parties in the surrounding areas will 
benefit by this proposal.
    Thank you for your consideration of this bill. We greatly 
appreciated this Committee's bi-partisan support for this bill last 
year when it was reported out to the full Senate, and we of course hope 
you will move it to the Senate floor and final passage this year. I 
would be pleased to answer any questions you might have.

    The Chairman. Thank you, Chairman Melendez. I appreciate 
your being here.
    Next, we will hear from the Honorable Robert Martin, 
Chairman, Morongo Band of Mission Indians, Banning, California.

  STATEMENT OF HON. ROBERT MARTIN, CHAIRMAN, MORONGO BAND OF 
                        MISSION INDIANS

    Mr. Martin. Chairman Barrasso, Vice Chairman Tester and 
members of the Committee, I am Robert Martin. I serve as the 
Tribal Chairman of the Morongo Band of Indians. Our reservation 
straddles Interstate 10 just west of Palm Springs in southern 
California.
    I appreciate the chance to provide testimony on this 
important issue and thank you for your willingness to consider 
H.R. 387, a land exchange bill introduced by Dr. Ruiz and 
Colonel Cook.
    In summary, this bill is intended to address a series of 
issue pertaining to lands within the Morongo Tribe's 
reservation impacting the tribe, the City of Banning and the 
non-Indian landowner.
    The bill itself addresses three land management problems in 
our area. First, Mr. Fields, a non-Indian, California-based 
businessman, owns a 41-acre parcel of fee land that is 
encircled by the tribal trust lands that he would like to 
develop to its highest and best use which requires improved 
access.
    In an effort to address this problem, the bill seeks to 
have the Fields' lands exchanged with an identical sized 41-
acre parcel of tribal trust land adjacent to other nearby lands 
already owned by Mr. Fields.
    The exchange of these lands will accomplish two objectives. 
It provides Mr. Fields with superior access to his existing 
lands, potentially opening the entire parcel to new economic 
development opportunities and at the same time, the parcel 
exchange consolidates our reservation's trust lands by 
eliminating the checkerboard effect in that area. The 
topography, physicality and values of the parcels of land to be 
exchanged are virtually identical in every respect.
    Second, the bill would address a pair of land use issues 
between the Morongo Tribe and the City of Banning. The primary 
access route to the reservation, a controlled entrance, is 
situated near the beginning of Malki Road and a road that 
extends near the reservation for approximately two miles.
    However, when Riverside County abandoned the roadway years 
ago because the section line runs down the middle of the road, 
approximately the first half mile of the western side of this 
road became owned by the City of Banning while the east side is 
held in trust by the United States. However, the City of 
Banning does not perform any maintenance on the roads. The 
tribe is interested in having the Banning land placed in tribal 
trust so as to allow for better maintenance and management of 
Malki Road in its entirety.
    Finally, the legislation addresses a desire by the City of 
Banning to locate a road and related utilities such as water 
and sewer that enable development of property on the city's 
eastern edge. The lands on which the city is interested in 
locating this road are held in trust by the United States on 
behalf of the tribe. An easement for the city to use the land 
must be approved by the Federal Government.
    Under the terms of the bill, the Secretary of the Interior 
would be directed to execute a number of changes. The lands 
currently held in trust status for the tribe would revert to 
fee simple status and would be transferred to Mr. Fields and 
the Fields' embedded lands would be placed into Federal trust 
status.
    Finally, the easement to Banning would be effectuated.
    We have provided the Committee with letters of support from 
all three parties and we have worked with the Bureau of Land 
Management to secure a land exchange map as referenced in H.R. 
387.
    With the enactment of this bill, Congress would help to 
resolve a series of issues that have evolved over a number of 
years which can only be resolved with the involvement of the 
Federal Government.
    From my tribe's perspective, the consolidation of our land 
is vitally important. From the perspective of Mr. Fields, he 
will secure direct access to lands that are currently non-
performing. With this bill, the City of Banning will now have 
the opportunity to extend a critically important road and 
related utilities to properties within the city limits that are 
currently under served thus making commercial development of 
those properties possible.
    This legislation is a true win-win for our entire community 
and will provide for future economic development opportunities 
that will create jobs, housing and revenues for the region.
    Finally, I want to thank Senator Boxer and Senator Moran 
for their willingness to work in a bipartisan spirit to help 
our entire community by introducing a companion bill in the 
Senate, S. 175.
    While we are grateful that the Committee has decided to 
take up the bill already approved by the House, we are 
nonetheless thankful for their efforts.
    I would be pleased to answer any questions you might have.
    [The prepared statement of Mr. Martin follows:]

  Prepared Statement of Hon. Robert Martin, Chairman, Morongo Band of 
                            Mission Indians
   H.R. 387 The Economic Development Through Tribal Land Exchange Act
    Chairman Barrasso, Vice-Chairman Tester and members of the 
committee, I am Robert Martin and I serve as the Tribal Chairman of the 
Morongo Band of Mission Indians. Our reservation straddles Interstate 
10, just west of Palm Springs in Southern California. I appreciate the 
chance to provide testimony on this important issue and thank you for 
your willingness to consider H.R. 387, a land exchange bill that has 
been introduced by Dr. Ruiz and Col. Cook. In summary, this bill is 
intended to address a series of issues pertaining to lands within the 
Morongo Tribe's reservation, impacting the Tribe, the City of Banning 
and a non-Indian landowner.
    The bill itself addresses three land management problems in our 
area. First, Mr. Fields, a non-Indian California based businessman, 
owns a 41-acre parcel of fee land (Parcel A--Fields Lands) that is 
encircled by tribal trust lands that he would like to develop to its 
highest and best use, which requires improved access. In an effort to 
address this problem the bill seeks to have the Fields Lands exchanged 
with an identically sized 41-acre parcel of tribal trust land (Parcel 
B--Morongo Lands) adjacent to other nearby lands already owned by Mr. 
Fields. The exchange of these lands will accomplish two objectives: It 
provides Mr. Fields with superior access to his existing lands, 
potentially opening up the entire parcel for new economic development 
opportunities; at the same time, the parcel exchange consolidates our 
reservation's trust lands by eliminating the checkerboard effect in 
that area. The topography, physicality and value of the parcels of land 
to be exchanged are virtually identical in every respect.
    Second, the bill would address a pair of land use issues between 
the Morongo Tribe and the City of Banning. The primary access route to 
the Reservation, a controlled entrance, is situated near the beginning 
of Malki Road, a road that extends into the Reservation for 
approximately two miles. However, when Riverside County abandoned that 
roadway years ago, because the section line runs down the middle of the 
road approximately the first half mile of the western side of this road 
became owned by the City of Banning (Parcel C--Banning Lands) while the 
east side is held in tribal trust by the United States. However, the 
City of Banning does not perform any maintenance on the road. The Tribe 
is interested in having the Banning Lands placed into tribal trust so 
as to allow for better maintenance and management of the Malki Road in 
its entirety.
    Finally, the legislation addresses a desire by the City of Banning 
to locate a road and related utilities, such as water and sewer lines, 
that would enable development of property on the City's eastern edge. 
As the lands in which the City is interested in locating this road 
(Parcel D--Easement to Banning) are held in trust by the United States 
on behalf of the Tribe, an easement for the City to use the land must 
be approved by the Federal Government.
    Under the terms of the bill, the Secretary of Interior would be 
directed to execute a number of changes: the Morongo Lands, currently 
held in trust status for the tribe, would revert to fee simple status 
and would be transferred to Mr. Fields; the Fields Lands and Banning 
Lands would be placed into federal trust status; and finally, the 
easement to Banning would be effectuated.
    We have provided the Committee with letters of support from all 
three of the parties and we have worked with the Bureau of Land 
Management to secure a land exchange map, as referenced in H.R. 387.
    With the enactment of this bill, Congress will help to resolve a 
series of issues that have evolved over a number of years and which can 
only be resolved with the involvement of the Federal Government. From 
my Tribe's perspective, the consolidation of our lands is vitally 
important. From the perspective of Mr. Fields, he will secure direct 
access to lands that are currently non-performing. And with this bill, 
the City of Banning will now have the opportunity to extend a 
critically important road and related utilities to properties within 
the city limits that are currently underserved, thus making commercial 
development of those properties possible. This legislation is a true 
win-win-win for our entire community, and will provide for future 
private economic development opportunities that will create jobs, 
housing and revenues for the region.
    Finally, I want to thank Senator Boxer and Senator Moran for their 
willingness to work in a bi-partisan spirit to help our entire 
community by introducing a companion bill in the Senate, S. 175. While 
we are grateful the Committee has decided to take up the bill already 
approved by the House, we are nonetheless thankful for their efforts.
    I would be pleased to answer any questions you might have regarding 
my testimony.

    The Chairman. Thank you very much, Chairman Martin, for 
your testimony.
    Next, we will hear from the Honorable Darren Daboda, 
Chairman of the Moapa Band of the Paiute Indians of Moapa, 
Nevada.
    Chairman Daboda.

STATEMENT OF HON. DARREN DABODA, CHAIRMAN, MOAPA BAND OF PAIUTE 
                            INDIANS

    Mr. Daboda. Good afternoon, Chairman Barrasso and Committee 
members.
    I am Darren Daboda, Chairman of the Moapa Band of Paiutes 
Business Council which is the governing body of our tribe. This 
is my third term as chairman and my seventh year on the tribal 
council.
    I am pleased to be here today to testify on behalf of the 
Moapa Band of Paiutes in strong support of S. 1986, the Moapa 
Land Conveyance Act. I thank Senator Reid for introducing the 
bill and thank Senator Barrasso and the Committee for holding 
this hearing.
    I ask that my written testimony be included in the hearing 
record.
    S. 1986 would restore 26,000 acres to our reservation. 
These are desert lands adjacent to our reservation that are 
managed by BLM and the Bureau of Reclamation.
    In addition to restoring the lands to our tribe that were 
taken years ago, the tribe believes that this bill provides an 
opportunity for the tribe to increase its self sufficiency and 
to add to southern Nevada's economic and recreational growth by 
returning these lands to local control.
    The Clark County Water Commissioners support this bill and 
the economic opportunity it presents.
    The Moapa Reservation is located in the heart of southern 
Paiute traditional lands. Our reservation was originally 2.2 
million acres in 1873. In 1875, Congress reduced the 
reservation to 1,000 acres to satisfy non-Indian settlers. We 
made the most of the 1,000 acres by building housing and 
community resources for tribal members and developing a 
successful farm.
    In 1980, Congress introduced 70,000 acres to the 
reservation. We have worked to create economic opportunities 
for the benefit of the tribe and our neighbors by introducing 
our tribal plaza at Interstate I-15's Valley of Fire exit and 
our leadership in utility scale solar development.
    If this bill becomes law, the tribe stands ready to make 
the most of the additional lands for the benefit of the tribe 
and the local community in several ways.
    First, the tribe desperately needs additional land to 
construct housing within the reservation. Our existing lands 
are generally not good for housing because the lands are too 
far from infrastructure or the lands are off limits for 
environmental reasons. Some of the lands included in this bill 
would be ideal for housing.
    Second, some of the lands have potential for economic 
development, particularly solar energy. Our solar projects are 
leading the way in southern Nevada for creating clean energy in 
ways that respect the natural environment and create jobs for 
local community members.
    We have one project nearing completion of construction that 
currently employs 500 local workers. We have two other projects 
in the works that will support similar opportunities.
    Third, some of the lands are of great location for outdoor 
recreation and economic development in support of recreation. 
The tribe supports responsible outdoor recreation and economic 
opportunities it brings to the local community.
    Fourth, some of the lands have been managed for flood 
control. The reservation saw a thousand year flood event 
September 8, 2014 that breached earthen dams on the 
reservation. The tribe has received FEMA funding to rebuild 
these reservation dams but there are other dams on BLM lands 
that need to be fixed. S. 1986 would transfer some of the BLM 
lands to the tribe and allow the tribe to take control of the 
dams and their repair.
    Fifth, some of the lands contain Paiute cultural resources. 
The tribe would like to manage those lands to preserve the 
cultural resources and natural environment where necessary.
    Finally, Section 4 of the bill would transfer 88 acres of 
fee land within the reservation into trust. The tribe has owned 
this land in fee since 1979. It is vacant land and we intend to 
leave it that way for now but we may use it in the future for 
agriculture or housing.
    In closing, I thank Senator Reid, Senator Barrasso and the 
Committee for their work on S. 1986 and the tribe looks forward 
to working with the Committee to move the bill forward.
    Thank you.
    [The prepared statement of Mr. Daboda follows:]

   Prepared Statement of Hon. Darren Daboda, Chairman, Moapa Band of 
                            Paiute Indians 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you very much, Chairman Daboda.
    I appreciate the testimony of each and every one of you.
    I also want to thank Senator Lankford. He was actually the 
very first person to arrive at the Committee in terms of the 
members today. We had originally scheduled a business meeting 
to start at 2:15 p.m. but it was temporarily delayed while we 
were voting on the floor. We had a couple roll call votes. I 
appreciate your efforts to be here so promptly, Senator 
Lankford.
    We did get to H.R. 487, an Act to allow the Miami Tribe of 
Oklahoma to lease or transfer certain lands. You are welcome if 
you would like to make comments regarding that. It has passed 
the Committee in the business meeting. Then please join in the 
questioning.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you, Mr. Chairman.
    I do appreciate the cooperation of the Committee in passing 
the bill to remove the Federal constraints that prevent the 
Miami Tribe of Oklahoma from freely buying and selling land 
they own but do not hold in trust.
    That is a great asset to them for economic development and 
allows them to be able to diversify their tribe and also expand 
without the outdated, burdensome, antiquated belief that tribes 
need the Federal Government to give them permission to move on 
anything. I do appreciate that very much.
    We have done this before as a Committee for tribes in 
Mississippi, Florida and Texas. I appreciate the help in being 
able to allow this Oklahoma tribe to be able to continue its 
economic development.
    I have just a couple questions as well.
    Mr. Smith, let me ask you a little bit about some Oklahoma 
items and where BIA is coming in, in the coming days, in the 
plans.
    As you are very aware, the Interior has just settled an 
agreement with the Chickasaw and Choctaw Nations for $186 
million for the mismanagement over the years and the lack of 
paperwork and processing on timber resources. We just had a 
settlement not long ago with the Osage Nation on energy 
resources.
    My question is, what is an efficient way, moving forward 
from here, to manage resources for which the Federal Government 
has responsibility but the tribes actually have that control 
and that management? Where do we go, what is the future path on 
this, to allow the tribes to be able to have greater access and 
control of the resources they have so we do not have these 
multimillion dollar settlements by the Federal taxpayer?
    Mr. Smith. I think that is a pretty broad question. In 
general, we take our direction from the tribes. We work with 
the tribes as partners. They set the priorities and where we 
can, we fall in with our funding, support and technical 
assistance.
    We have programs that the tribes have taken on under 
contract or compact. They administer those programs, manage 
those programs and we provide the funding in general but it is 
a partnership.
    We have listened to the tribes and taken a look at their 
plans. Many of them have IRMPs or resource management plans. We 
follow their lead.
    Senator Lankford. So how can we improve the process of 
compacting or contracting with the tribes for these Federal 
responsibilities so they have a greater sense of lead on that?
    Mr. Smith. I think just provide more technical assistance. 
Again, the tribes are way ahead of us in most cases because 
they are hiring professional people, technical people that we 
do not have anymore.
    Our population, as far as our staff, has gone down because 
of either lack of funding, reductions in force or I guess you 
would call it buyouts. Some people call it that but it is an 
opportunity for early retirement for some people.
    In general, most of those funds transfer to the tribes and 
they are able to hire people with those funds.
    Senator Lankford. I guess the question is, given the 
transition out of D.C. into tribal leadership, they are able to 
make more of those decisions, how do you feel that is moving at 
this point? How long is the backlog to be able to make some of 
those decisions?
    As I have chatted with some of the tribes, the decision-
making is so slow. They want the ability to be able to make the 
decision on some of these aspects. Where are we missing each 
other?
    Mr. Smith. I am not sure I agree with that. We have 
regional directors in all 12 of our regions throughout the 
United States. They are senior executives. I supervise those 
regional directors and they work very closely with the tribes 
in their jurisdiction.
    They work hand in hand with the tribes. They follow their 
lead. Whatever enactments under tribal law are applicable, they 
fall in line with the tribes' wishes. I think they work closely 
together. I do not know that we a large backlog of things to 
do. The tribes operate at their level and at their pace. We 
coordinate our activities with them.
    Senator Lankford. We will follow up on this. I will share 
some individual examples with you and maybe we can work through 
this. We are at the same spot you are. We are trying to be able 
to serve individuals, be able to work through that process and 
make sure we have the maximum amount of efficiency. Let us walk 
through that in the days ahead.
    Let me ask just on the issue of off-reservation gaming, has 
anything changed as far as the Bureau's position on that? Has 
anything been altered on off-reservation gaming at all in the 
perspective?
    Mr. Smith. Not that I am aware of. I think things are 
generally the way they have been for several years.
    Senator Lankford. Thank you. I yield back.
    The Chairman. Thank you, Senator Lankford. Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony. I want to 
start with you, Mike.
    These bills today deal with transfers of Federal land. They 
can be deemed surplus locations, it just makes sense to make 
the transfer, whatever the reason is. We deal with these bills 
with some regularity.
    The question I have for you is has there been conversation 
around the Interior that we should add statutory mechanisms to 
allow Federal agencies to transfer the lands when it is kind of 
a no-brainer rather than forcing the tribes to go through 
Congress?
    Mr. Smith. The transfers that I am aware of are usually 
administrative in nature from one Federal agency to another. It 
seems like it is fairly simple and maybe we do need some laws 
that would strengthen that transfer so that at the local level, 
anyway, when lands are available for disposal, tribes nearby 
would have the first opportunity to acquire those.
    Senator Tester. It might be something to think about going 
forward. I am never much in favor of ceding authority to the 
Executive Branch but in this particular case, it may make 
sense.
    I want to talk about tribal opposition to the Siletz land 
bill and your testimony with you, Mike. In your testimony on S. 
817, you noted there is some tribal opposition to the Siletz 
Tribe lands bill. Can you tell me, are there historical reasons 
for the tribal opposition to this bill?
    Mr. Smith. The only thing I am aware of is that there were 
many tribes within that general area. Some became federally-
recognized and others did not. That may be the rub. I am not 
sure of anything else.
    Senator Tester. You are now aware of the reason for 
opposition?
    Mr. Smith. No.
    Senator Tester. You know there is opposition?
    Mr. Smith. There was an original reservation that was 
supposed to have been established for a number of tribes and 
the Confederacy of Siletz was reduced down to eight or nine 
tribes so there were a larger number. I think the other tribes 
that were not included are probably the ones that would object.
    Senator Tester. Glen, your testimony mentioned an existing 
grazing permit that covers the parcels to be transferred to the 
Tuolumne Band. Given S. 1822 provides that the transfer is 
subject to valid existing rights, would the bill affect the 
permit holder's rights when it comes to grazing.
    Mr. Casamassa. Given the fact there is a limited number of 
AUMs on that small parcel of land, we feel we have the 
opportunity to mitigate any of the impacts to the livestock 
grazing permittee.
    I think there is going to be some level of agreement made 
between various entities to ensure that those AUMs still remain 
whole for the permittee.
    Senator Tester. I want to back up a bit to hear what you 
just said. Are you saying that those rights do transfer and 
that you would be buying those out or are you saying those 
rights do transfer and there would be an agreement to give 
those up?
    Mr. Casamassa. Vice Chairman Tester, I am saying that the 
amount of AUMs associated with that small conveyance can be 
absorbed into the existing permits outside of that particular 
area.
    It is my understanding that there is some level of 
agreement made amongst the various parties to ensure that those 
AUMs are maintained.
    Senator Tester. That is good. That could be a sticking 
point if it is not. Let us put it that way.
    The next question is for you, Arlan. You are here on behalf 
of several tribes from Nevada. You noted that the land bases 
are very small and are often unworkable in your State of 
Nevada.
    What would this bill's additional lands mean for the well-
being of individual tribal members in Nevada?
    Mr. Melendez. I believe it would be helpful for cultural 
activities and economic development. I think it is a positive 
bill.
    I think we do have a concern though about the concerns the 
Bureau of Land Management may have. As you know, it means a lot 
to us. When we look at the maps of the Bureau of Land 
Management, they are mile squares.
    The concern we have heard on the House side and here today 
is that they want us to basically take a complete square. Some 
of these do not match up with, say, a mountain range where we 
are trying to just go to the mountain top. If you go on the 
other side of the mountain, you come into conflict.
    There is one situation in our reservation where it is an 
airport owned by someone else. They are not going to be in 
support of the tribe taking that square, if you try to square 
it up.
    At some point, if we went to the Nevada tribes and asked 
them, has the Bureau of Land Management actually contacted you 
for each one of these concerns the Interior has, I would 
guarantee you those tribes in Nevada would say they have not 
been really contacted one on one to try to resolve some of 
these issues.
    We heard it before in the hearing with the House side and 
now we are hearing it again. I hope that one of the directives 
that comes out of here is that the Bureau of Land Management or 
the Interior actually contacts these tribes and actually works 
out these situations because I think the tribes do not want to 
keep hearing this is a concern but nothing is really resolved 
on it.
    That could basically be an impediment to the passage of 
this bill. That is my concern as I head the Interior's position 
on some of these issues. I do not think that some of the tribes 
in Nevada actually really know about some of these things that 
are the concerns of the Interior.
    Senator Tester. Mike, have you reached out to the tribes on 
this stuff? Has Interior reached out to the tribes?
    Mr. Smith. I thought we had. In general, when the 
information gets to us, we pass it on to the tribes. I try to 
work with them toward whatever benefit it would be.
    Senator Tester. I did not plan on going down this line of 
questioning but if it is a problem, it needs to be fixed so 
that we know what we are getting into on the land transfers. We 
want to make sure that we do not do it halfway.
    Mr. Smith. I do agree. One of the issues with Nevada and 
the location the chairman is in is it is quite a ways to the 
regional office and their agency has been watered down some. 
They have split in half. Again, we do not have the technical 
people that we used to have.
    Senator Tester. I gotcha, and we will fight to make sure 
you have the staffing to be able to meet the needs of Indian 
country. In the meantime, figure out if you can meet halfway 
between. Figure out some way to get it done because you have to 
make sure the communication is there, that the consulting is 
done and all that stuff.
    Mr. Smith. Yes, sir.
    Senator Tester. Go ahead, Arlan. I am way over time.
    Mr. Melendez. One last thought is in the concerns, you see 
the Sage-Grouse issue. Even a tribe like mine does not have the 
Sage-Grouse issue. There is no Sage-Grouse up in Hungry Valley 
and the land we are talking about.
    I would think that most of the tribes are probably in 
agreement with protecting the Sage-Grouse. Native tribes are 
probably the best environmentalists; they are probably the best 
conservation people. I do not see it being a problem with 
taking this land into trust.
    I think the tribes would do everything they can to protect 
the Sage-Grouse but we see it coming up constantly as a finding 
or at a hearing. I hope we can get beyond that and not have it 
continually being an impediment to the passage of this bill.
    Senator Tester. Okay. I have one quick question. I did not 
want to leave you out, Robert. You just got lucky. I do have a 
question for Darren real quick because the Chairman has been so 
kind with the time.
    From your written testimony, it sounds like the tribes have 
reasonable success with renewable energy and other economic 
development initiatives. You need to be congratulated on that.
    How has the tribe's energy and economic development 
activities affected the demand for tribal housing? Would the 
tribe be able to meet the housing needs if this passes?
    Mr. Daboda. Yes, this would give us an opportunity because 
where the community is located right now is in a floodplain 
zone. That would be our first issue, looking for housing. It 
would be from the Valley of Fire to one of the areas we are 
looking at because it is higher ground and out of the flood 
zone.
    In the late 1990s, our tribe did not get mapped when FEMA 
came there for tribes to get surveyed. When it reaches the 
reservation boundaries, there is no floodplain zone at all. 
Around the Clark County area, you see a lot of the tributaries 
have the flood zones and all the washes except for our tribe. 
Our tribe, at the time, did not know what the FEMA mapping was 
and got impacted.
    Senator Tester. But the point is, if you are successful 
with energy and economic development, as you have been in the 
past, does the tribe have the capacity to meet the housing 
needs?
    Mr. Daboda. Yes.
    Senator Tester. This land transfer is going to give you 
more opportunity. That is the plan in my head anyway. For 
economic development, you guys have the capacity? That is the 
question.
    Mr. Daboda. Yes. We do have the capacity. Like I said, we 
have two other programs on the way.
    Senator Tester. Thank you very much.
    Thank you all for your testimony.
    The Chairman. Thank you, Senator Tester.
    Mr. Smith, following up on Senator Tester's question, 
specifically with S. 817, I may have some additional written 
questions for you related to some of the opposition expressed 
by some of the other tribes you mention in your written 
testimony. I may have some written questions on that.
    I did want to go to the recommendation on S. 1436, the 
Nevada Native Nations Land Act. Your recommendation was it be 
changed to adjust the time frames for some of the surveys which 
were insufficient.
    The GAO noted in the June 2015 report on Indian Energy 
Development that the surveys could not be found or were 
outdated. It should not be a systemic problem, I believe, 
within the department.
    How does your department intend to improve surveying issues 
and availability so it will not delay development or frustrate 
the purpose of this bill?
    Mr. Smith. Thank you for the question.
    I think probably that is a question that would better be 
answered by the BLM. We rely on them for cadastral surveys. The 
timelines and the funding kind of go hand in hand. They control 
that.
    The Chairman. You can see where the concern is. It could 
have an impact on the issues.
    Mr. Smith. Yes.
    The Chairman. There are currently three existing rights-of-
way on the land proposed to be taken into trust on the 
Susanville Rancheria. Under S. 1761, BLM administers those 
rights-of-way. If S. 1761 is enacted, what role would the BIA 
have in administering those rights-of-way, do you know?
    Mr. Smith. I do not believe there would be any change. I 
think it will stay the same as it is now.
    The Chairman. Mr. Casamassa, your written testimony states 
that a grazing permit covers the parcels proposed to be taken 
into trust, S. 1822, for the Tuolumne Band of the Me-Wuk 
Indians. You further state that the forage is minimal and there 
is no range infrastructure on the properties. Can you explain 
what revenues and activities are existing for these permits?
    Mr. Casamassa. In terms of the minimization of the forage, 
they do generate to some degree overall some revenues for the 
treasury but in terms of the revenue for the individual 
permittee, it is, to a degree, minimal.
    We believe that based on the minimal AUMs, we could absorb 
that administratively into the existing permit and the lands 
that are now grazed to compensate for that level of AUMs lost 
through the conveyance.
    The Chairman. Thank you.
    Chairman Melendez, with regard to S. 1436, your testimony 
stated that the tribes impacted by this legislation expanding 
and consolidating your lands for housing, economic development 
and preservation will enable cultural practices to continue to 
thrive.
    Other potential land use benefits highlighted in your 
testimony were energy development and resolving jurisdictional 
disputes. In addition, how will these land transfers also 
benefit the surrounding local communities?
    Mr. Melendez. I think working together with the county, we 
have support from Washoe County, in going to them first and 
talking about some of the land issues. As you know, out in our 
rural reservation, it is 1,900 acres, a little more than that, 
1,960 acres, we have a lot of things happening out there.
    We have off-road vehicles that are destroying some of the 
vegetation. We have people cutting their own racetracks out 
there. We have target practices near to our housing out there. 
We have people dumping trash out there from the cities.
    As you know, the Bureau of Land Management has about one 
ranger trying to patrol not just that land but most of the 
northern area around Reno, Sparks and Washoe County. We have a 
lot of support that the tribe could basically patrol that area 
a lot better than the BLM.
    That is one of the supported reasons why the county 
supports us and the City of Reno about taking over this land.
    The Chairman. Chairman Martin, I want to ask you about some 
of the cooperative efforts that we have seen. When you take a 
look at the land-into-trust transfer under H.R. 387, local 
communities joined together to develop a solution that works 
for everyone. It seems that way to me.
    This example of local cooperation, I think, could be a 
model for other communities, not just for trust land 
acquisition but other developmental opportunities. Could you 
talk a little bit about how these joint cooperative efforts 
arose and how it came into being?
    Mr. Martin. We worked closely with the City of Banning and 
the county for mitigation of our casino, of impacts. It has 
carried over into other things we have done. We have a great 
relationship with the city and the county and also Cabazon, the 
nearest local community. Outlying from that is Beaumont. There 
are a couple others that we worked closely with for the last 15 
or 20 years.
    It is not something that we just developed but it is 
something we have worked with for the last 15 to 20 years. It 
has been a good relationship.
    The Chairman. Thank you.
    Chairman Daboda, current uses of the BLM land described in 
S. 1986 include recreational uses. In addition to the Moapa 
Valley Water District that provides domestic and commercial 
water services to the region involved in the bill, the district 
also has agreements with Federal and State entities which 
govern various conservation efforts.
    How would this bill address current public land use and the 
Moapa Valley Water District uses?
    Mr. Daboda. For the recreational aspect of it, we are 
working with Partners in Conservation. We just allowed them 
access to a hump-n-bump race event. Recently in the last month, 
we granted them access, they needed the vehicles walked down.
    Hunters for Big Horn sheep, historically, they are the only 
ones that really contact the reservation. We have never denied 
them access. We give them a temporary permit, get their 
driver's license and their data, if they are coming out or 
scouting the site for Big Horn sheep.
    Regarding the Moapa Water District, we have partnerships 
with them right now currently with an MOU for lease agreement 
for water because we do not have Federal adjudicated water 
rights yet. We have worked with them in the last seven years on 
water issues.
    That is something that came up recently, so we will 
probably have to be in further discussion with the Moapa Water 
Authority on what they are looking at because they are looking 
at potentially wells on one of the parcels we are looking at. I 
guess it is proposed wells because there are no existing wells 
right now.
    The Chairman. Very well.
    I want to thank all of you for being here, for testifying, 
for sharing your knowledge and support of this legislation with 
the Committee. Thank you for answering the questions. Some of 
the other Committee members may want to send questions to you 
in writing. We ask that you respond quickly.
    The hearing record will remain open for ten days.
    Thank you.
    This hearing is adjourned.
    [Whereupon, at 3:44 p.m., the Committee was adjourned.]

                            A P P E N D I X

                Prepared Statement of Hon. Harry Reid, 
                        U.S. Senator From Nevada
    Thank you Chairman Barrasso and Vice-Chairman Tester for the 
opportunity to submit testimony on these two bills that would transfer 
land into trust for a total of seven Indian tribes in Nevada.
    Nevada's Great Basin has always been home to the Washoe, Paiute and 
Western Shoshone People. The first Nevadans have long been a voice for 
protecting our wild landscapes and enriching our state through their 
language and cultural heritage. I take the many obligations that the 
United States has to tribal nations seriously. Land is lifeblood to 
Native Americans and these bills provide space for housing, economic 
and community development, traditional uses and cultural protection. I 
would like to commend the tribes, whose immense work and collaboration 
made these bills possible, and I look forward to continuing to work 
with our First Nevadans on protecting their homelands.
S. 1436, The Nevada Native Nations Land Act
    The Nevada Native Nations Land Act, S. 1436, would transfer land 
into trust for six northern Nevada tribes--the Fort McDermitt Paiute 
and Shoshone Tribe, the Duck Valley Shoshone Paiute Tribes, the Summit 
Lake Paiute Tribe, the Reno-Sparks Indian Colony, the Pyramid Lake 
Paiute Tribe and the Duckwater Shoshone Tribe. The Nevada Native 
Nations Land Act would allow these six tribes to build housing for 
their members, preserve their cultural heritage and traditions, and 
provide opportunities for economic development.
    The Northern Paiutes have always made their homes throughout what 
is now Idaho, California, Utah and Nevada. The Western Shoshones have 
been living in what is now southern Idaho, central Nevada, northwestern 
Utah, and the Death Valley region of southern California. Due to 
westward expansion, our government pushed some Western Shoshones and 
Northern Paiutes into the same tribe and onto the same reservation 
where their descendants remain.
    The Fort McDermitt Paiute and Shoshone Tribe now make their home 
along the Nevada-Oregon border. Starting as a military fort in 1865, 
the military reservation was turned into an Indian Agency in 1889 and 
then established as an Indian reservation in 1936. The reservation is 
currently made up of 16,354 acres in Nevada and 19,000 acres in Oregon. 
The Nevada Native Nations Land Act would add 19,094 acres now managed 
by the BLM in Nevada to the lands already held in trust for the tribe.
    The Duck Valley Indian Reservation is the home of the Shoshone-
Paiute Tribes who live along the state line between Nevada and Idaho. 
The reservation is 289,819 acres, including 22,231 acres of wetlands. 
The tribes have limited economic opportunities and tribal members have 
made their way farming and ranching. This bill would place 82 acres of 
U.S. Forest Service land into trust for the tribes. The tribes plan to 
rehabilitate structures that were used by Forest Service employees into 
much-needed housing on the parcel.
    The Summit Lake Reservation is one of the most rural and remote 
reservations in Nevada along the Oregon and California borders. 
Established in 1913 for the Summit Lake Paiute Tribe, the reservation 
today is 12,573 acres. The tribe seeks land to maintain the integrity 
of its reservation, protect Summit Lake and restore the Lahontan 
Cutthroat Trout. S. 1436 would transfer 941 acres of BLM-managed land 
into trust for the tribe.
    The Reno-Sparks Indian Colony has a very small 28-acre reservation 
in Reno, Nevada, established in 1917. Established as an Indian tribe 
under the Indian Reorganization Act in 1934, the colony now has 1,100 
Paiute, Shoshone and Washoe tribal members. A newer 1,920 acre 
reservation in Hungry Valley, 19 miles north of Reno, was created by 
federal legislation in 1986. While the Hungry Valley Reservation 
provided the colony more space for residential and community 
development, the colony has experienced continual encroachment from the 
growing city of Reno and increased public land use. Tribal members 
requested additional lands to ensure their safety, allow them to 
continue cultural practices and enhance their quality of life. The 
legislation would transfer 13,434 acres of BLM land into trust for the 
tribe.
    The Pyramid Lake Paiute Tribe have made their homelands around 
Pyramid Lake, a unique desert terminal lake. Pyramid Lake is one of the 
most valuable assets of the tribe and is entirely enclosed within the 
boundaries of the reservation. S. 1436 would expand the reservation 
with an additional 6,357 acres of BLM-managed land.
    The Duckwater Shoshone Tribe make their home on the Duckwater 
Shoshone Reservation in Nye County, Nevada. The tribe has 385 members 
and their reservation consists of 3,785 acres. The tribe has grazing 
rights to an additional 442,000 acres known as the Duckwater Historic 
Grazing Area. This bill would convey 31,269 acres of BLM administered 
land to the tribe.
S. 1986, The Moapa Band of Paiutes Land Conveyance Act
    The Moapa Band of Paiute Indians have been in Nevada and the West 
since time immemorial and suffered great land losses through federal 
Indian policy. When the Moapa River Reservation was established in the 
late 1800s, it consisted of over two million acres. In its lust to 
settle the West, Congress drastically reduced the reservation to just 
1,000 acres in 1875. It wasn't until 1980 that Congress restored 70,500 
acres to the reservation. Today the reservation is approximately 71,954 
acres.
    The Moapa Band of Paiutes Land Conveyance Act, S. 1986, would 
direct the Secretary of the Interior to take 25,977 acres of land 
currently managed by the Bureau of Land Management (BLM) and the Bureau 
of Reclamation into trust for the Moapa People who live outside of Las 
Vegas, Nevada. This legislation would provide much needed land for the 
band's housing, economic development and cultural preservation.
    Located on I-15, the band owns the Moapa Paiute Travel Plaza. The 
band is the first in Indian Country to develop utility-scale solar 
projects on tribal lands. Since southern Nevada has critical habitat 
for the desert tortoise, a species listed as threatened under the 
Endangered Species Act, the band works closely with federal, state, and 
local partners, members of the conservation community and interested 
stakeholders to develop their community in an environmentally 
responsible manner.
    This bill would also direct the Secretary of the Interior to take 
88 acres that the band owns in fee into trust. The 88 acres are 
currently undeveloped and adjacent to the reservation. The band does 
not intend to conduct gaming on these lands as they have more lucrative 
lands along I-15.
    Lands legislation is important to me and the Indian tribes in 
Nevada. Throughout the history of our country, Native Americans have 
been removed and disenfranchised from their homelands. They have been 
treated so poorly. One of the first pieces of legislation I worked on 
when I came to Congress was the historic Pyramid Lake/Truckee-Carson 
Water Rights Settlement. This historic settlement involved two states, 
several cities, a lake, a river, endangered species, and two Indian 
tribes. These Indian water rights needed to be protected, just as 
tribal lands need to be restored especially in Nevada where tribal 
landbases are smaller and more rural and remote than in any other parts 
of Indian Country. I will continue to do what I can to right some of 
the many wrongs and help tribes restore their homelands.
    I greatly appreciate that the Chairman and Vice-Chairman have made 
time for this hearing and I look forward to working with the Committee 
to advance these bills.
    I request that my statement be included in the record.
                                 ______
                                 
   Prepared Statement of Hon. Perline Thompson, Chairman, Duckwater 
                             Shoshone Tribe
              S. 1436, ``Nevada Native Nations Lands Act''
    On behalf of the Duckwater Shoshone Tribe, I would like to submit 
this statement in support of S. 1436, the ``Nevada Native Nations Lands 
Act.'' Our tribe is a member of the Nevada Tribal Land Coalition, which 
is seeking to expand land bases for tribes in Nevada to provide for 
sufficient housing, economic development and other essential tribal 
services.
    The Duckwater Shoshone Reservation, consisting of 3,785 acres of 
tribal land held in trust by the United States, is located in Nye 
County, Nevada, about 200 miles northwest of Las Vegas and 70 miles 
southwest of Ely. The Reservation consists of three ranches purchased 
in 1940-43 by the Interior Department under the 1934 Indian 
Reorganization Act, plus grazing and water rights that were appurtenant 
to the ranches when purchased covering an additional 442,000 acres 
(Duckwater Historic Grazing Area).
    With enactment of S. 1436, approximately 31,269 acres of land 
administered by the Bureau of Land Management would be conveyed to be 
held in trust for the benefit of the Duckwater Shoshone Tribe.
    The Duckwater Tribe desperately needs a larger land base. As of 
July 10, 2015, there were 393 enrolled members of the Duckwater 
Shoshone Tribe. The Duckwater Reservation is so small that more than 
three-fourths of the Tribe's members have been forced to leave to find 
jobs and housing. Only 88 tribally enrolled members live on the 
Reservation. Of the additional 63 people living on the Reservation, 
most are members of neighboring Tribes and/or spouses of Tribal 
members. The ranches that comprise the Reservation and originally 
supported three non-Indian families must now support 74 Indian 
families. Ten tribal members are currently running livestock on the 
Reservation and the Duckwater BLM Grazing Area.
    The BLM has reduced the Tribe's allowable Animal Unit Months (AUMs) 
of grazing by 62 percent to the current level of 4,619 since the 
Reservation was created. The Tribe sold the tribal herd in 2003 because 
there is insufficient forage for both the Tribe and individual tribal 
cattlemen, who presently run 534 head of livestock. The Tribe is very 
anxious to acquire another herd if sufficient forage were available. 
The Tribe cannot maintain even existing livestock operations because of 
lack of sufficient grazing lands, and further economic development is 
impossible. The tribal economy consists entirely of tribal government 
operations, including the tribal headquarters, the tribal school and 
the tribal health clinic, plus very limited livestock grazing.
    The Duckwater Shoshone Tribe plans to utilize the additional lands 
to be convened under S. 1436 for economic development and community 
growth. These lands will allow the Tribe to expand agricultural 
operations, plan for renewable energy projects, additional housing & 
facilities development, and protection of cultural and spiritual sites, 
as well as wildlife. The Tribe's plan for the lands incorporates our 
spiritual, cultural, natural resource management, and economic heritage 
with a goal of self-sufficiency.
    The Tribe has obtained resolutions and letters of support for 
Duckwater Reservation expansion and tribal economic development plans 
from the following:

        1. Nye County Commission
        2. Eureka County Commission
        3. National Congress of American Indians
        4. Inter-Tribal Council of Nevada
        5. Barrick Gold of North America
        6. Mount Wheeler Power Company
        7. General Moly Company
        8. Carole Hanks, Owner Blue Eagle Ranch
        9. David Weaver, Owner Angleworm Ranch

    Thank you for the opportunity to present this testimony in support 
of S. 1436.
                                 ______
                                 
Prepared Statement of Hon. Vinton Hawley, Chairman, Pyramid Lake Paiute 
                             Tribal Council
        Senate Bill 1436 the ``Nevada Native Nations Lands Act''
    On behalf of the Pyramid Lake Paiute Tribal Council, the governing 
body of the Pyramid Lake Tribe and pursuant to the Council's resolution 
dated May 21, 2014, I respectfully offer the following testimony in 
support of S. 1436, the Nevada Native Nations Lands Act.
    The Pyramid Lake Paiute Tribe is a federally recognized Indian 
Tribe and has a government-to-government relationship with the United 
States of America.
    The Pyramid Lake Reservation lies approximately 35 miles northeast 
of Reno, Nevada in northwestern Nevada. It lies almost entirely in 
Washoe County. The Reservation has 742.2 square miles in land area and 
includes all of Pyramid Lake, and all of the Truckee River from the Big 
Bend north. The Reservation is centered on Pyramid Lake, and the lake 
itself comprises 25 percent of the reservation's area. The Reservation 
includes most of the Lake Mountain Range, portions of the Virginia 
Mountains and Pah Rah Range and the southern end of the Smoke Creek 
Desert. There are three communities on the Reservation. Sutcliffe is 
located on the western shore of the Lake, Nixon is at the southern end 
of the Lake, and Wadsworth, the largest, is located near the Big Bend 
of the Truckee at the southern end of the reservation, just north of 
the non-reservation town of Fernley.
    The reservation land was first set aside for the Northern Paiute at 
request of the Bureau of Indian Affairs in 1859. The Reservation was 
not surveyed until 1865. President Ulysses S. Grant subsequently 
affirmed the Reservation's existence by executive order dated March 23, 
1874.
    Our Tribe has a long history of repatriating ancestral lands within 
and contiguous to the reservation to Tribal ownership to protect, 
conserve, and enhance the cultural and natural resources of the Pyramid 
Lake Paiute Reservation.
    The Tribe has long sought the ancestral lands set forth in S. 1436 
for inclusion within the legal boundaries of the Reservation. In 1990, 
President George H. W. Bush signed Public Law 101-618 which included a 
provision to allow private lands within or contiguous to the 
Reservation to be acquired by means of a Federal Land Exchange and then 
be incorporated within the Reservation. Subsequently, a number of land 
exchanges authorized by PL 101-618 were successfully completed enabling 
the Tribe to acquire certain lands in the Pah Rah Mountain Range on the 
southwest border of the reservation. Unfortunately, almost 8,000 acres 
of private land acquired in the Pah Rah Range under PL 101-618 were 
conveyed to the United States under the jurisdiction of the Bureau of 
Land Management (BLM) rather than into Trust status. The Tribe has long 
held that these properties should have been put into Trust status. The 
proposed legislation would help address this by providing for the 
transfer of some of these as lands in the Pah Range that lie in Pyramid 
Lake's watershed to Trust status.
    Additionally, in 2008 the Tribe acquired private lands contiguous 
to the eastern boundary of the Reservation in the Mud Slough area which 
lands are intermingled with isolated parcels of BLM land. S. 1436 would 
unify the land ownership pattern allowing for better, more 
comprehensive Tribal land management of this area.
    Incorporation of the federal land that is contiguous to the 
Reservation will help protect the Pyramid Lake watershed, and the 
lake's world-renowned fishery. Transfer of these lands would also allow 
the Tribe to better manage the watershed of Pyramid Lake, the central 
feature of the Reservation.
    Pyramid Lake is home to the cui-ui, Chasmistes cujus, a large 
sucker fish endemic to Pyramid Lake. The cui-ui is not only a 
critically endangered species, but is also one of the few surviving 
members of its genus. As suggested by the translation of the Tribe's 
name--``Cui ui Ticutta''--the ``Cui ui Eaters''--these fish were and 
remain integral to the Tribe's culture and were a vital subsistence 
food source. Following the construction of Derby Dam in 1905 and 
diversion of much of the Truckee River's flow, the Pyramid Lake fishery 
declined and by 1930 it was no longer capable of supplying even 
subsistence food.
    Pyramid Lake is also home to the federally listed Lahontan 
cutthroat trout. The trout were and remain integral to the Tribe's 
culture and are central to the Tribe's economy and remain a vital food 
source for Tribal members. Lahontan cutthroat trout were plentiful in 
the mid-1880's. But as more people moved to the area and began to use 
the natural resources, what was once plentiful became depleted. 
Overfishing of the lake's population, introduction of exotic fish and 
habitat degradation caused the collapse of the commercial Lahontan 
cutthroat in Pyramid Lake by 1944. Pyramid Lake was restocked with fish 
captured from Summit Lake (Nevada). However, in the 1970s, fish, 
believed to have been stocked almost a century ago, from the Pyramid 
Lake strain were discovered in a small stream along the Pilot Peak area 
of western Utah border, and are a genetic match to the original strain. 
This Pilot Peak strain is now integral to the reintroduction and 
planting programs maintained by the U.S. Fish and Wildlife Service. The 
Lahontan cutthroat trout were classified as an endangered species 
between 1970 and 1975, then the classification was relaxed to 
threatened species in 1975, and reaffirmed as threatened in 2008.
    As stated above, transfer of these lands will allow the Tribe to 
better manage its natural resources and protect Pyramid Lake and its 
fish population thereby achieving cultural, economic and environmental 
benefits.
    Finally, the historic range of the Pyramid Lake Paiute people was 
far greater than the current boundary of the Pyramid Lake Paiute 
Reservation, and transfer of federal lands that are contiguous to the 
current boundary of the Reservation would allow the Pyramid Lake Paiute 
people to expand their present day Reservation to include additional 
lands that they occupied in the past.
    Early on representatives of the Pyramid Lake Tribe reached out to 
nearby stakeholders in an effort to address concerns they may have. We 
have in good faith attempted to address all legitimate concerns that 
have been brought to our attention. And, even though the proposed 
legislation is clearly subject to honoring any and all valid existing 
rights, in an effort to accommodate concerns expressed by mining 
interests and recreationists, the Tribe acquiesced to requests to 
remove over 10,000 acres from the bill as originally proposed. After 
doing so, the Tribe agreed to remove an additional approximately 3,500 
acres to accommodate concerns that were only brought to the Tribe's 
attention on July 22, 2014. I believe the Pyramid Lake Tribe has been 
extremely willing to compromise in order to make this bill a reality 
and on behalf of the Pyramid Lake Tribal Council and all our members, I 
wish to thank Senators Reid and Heller for their support of this 
legislation and respectfully ask that you and your colleagues support 
S. 1436.
    Thank you for your consideration of the preceding testimony.
                                 ______
                                 
Prepared Statement of Hon. Randi DeSoto, Chairwoman, Summit Lake Paiute 
                             Tribal Council
    On behalf of the Summit Lake Paiute Tribe, I wish to thank you for 
the opportunity to offer testimony in support of S. 1436, the Nevada 
Native Nations Lands Act.
Background
    The Summit Lake Paiute Tribe is a federally recognized Indian Tribe 
and has a government-to-government relationship with the Federal 
Government.
    By election on October 24, 1964, the members of the Agai Panina 
Ticutta (Summit Lake Fish Eaters) Tribe of the Northern Paiute Nation 
gave up their traditional form of government and conditionally adopted 
the form of government that was set forth by the Indian Reorganization 
Act of 1934 (see Articles of Association (Constitution) and changed the 
name of the Tribe to the ``Summit Lake Paiute Tribe.''
    The Tribe's Articles of Association were approved by John A. Carver 
Jr., Acting Secretary of the U.S. Department of the Interior on January 
8, 1965.
    The Tribe's Reservation is in a very remote location in 
northwestern Nevada about 50 miles south of the Oregon state line, and 
about 50 miles east of the California state line and 5 hours by road 
from Reno, Nevada.
    Prior to contact with Europeans and Euro-Americans, the Agai Panina 
Ticutta controlled at least 2,800 square miles of land including land 
that is now in the states of Oregon and California.
    At one time, the Reservation was part of a military reservation, 
known as Camp McGarry that was established by Executive order in 1867. 
The military reservation was abandoned in 1871 and transferred from the 
War Department to the Department of the Interior.
    The Reservation was established on January 14, 1913 by a 
President's Executive Order, number 1681. The Executive Order set aside 
about 5,026 acres in trust for the Tribe. Successive actions have added 
additional acreage to the Reservation. Today, the total acreage of the 
Reservation is about 12,573 acres. The total surface of the lake 
fluctuates between 900 and over 600 acres between the run off of snow 
melt in spring and dry summer conditions. Reservation lands surround 
Summit Lake except in one area on the west side of Summit Lake. Senate 
Bill 1436 would incorporate these public domain lands into the 
Reservation thereby restoring the integrity of the Reservation and 
allowing for better, more comprehensive management of the Lake and its 
fish population.
    Summit Lake is home to the federally listed Lahontan cutthroat 
trout. As suggested by the translation of the Tribe's name--``Agai 
Panina Ticutta''--the ``Summit Lake Fish Eaters'', the trout were and 
remain integral to the Tribe's culture and are a vital food source.
    Lahontan cutthroat trout were plentiful in the mid-1880s. But as 
more people moved to the area and began to use the natural resources, 
what was once plentiful became depleted. Overfishing of the lake 
populations, introduction of exotic fish and habitat degradation caused 
the collapse of the commercial Lahontan cutthroat from nearby lakes 
such as Lake Tahoe in 1939 and Pyramid Lake five years later in 1944.
    Cooperative efforts to improve the status of Lahontan cutthroat 
trout began as early as the 1940's. Habitat improvement projects and 
livestock grazing enclosures were initiated as early as 1969.
    S. 1436 presents an opportunity to continue efforts to restore 
Summit Lake and its fishery. Transfer of the 941 acres of public domain 
lands in Township 42 North, Range 25 East, Sections 35 & 36 to the 
Summit Lake Paiute Tribe for inclusion in the Summit Lake Reservation--
the only lands that surround Summit Lake which are not a part of the 
Reservation--will allow for significantly improved management and 
habitat restoration for existing and future Lahontan cutthroat trout 
populations.
    The Summit Lake Tribe has long sought these lands which lands 
should have been a part of the Reservation from the Reservation's 
inception a century ago.
    Transfer of these lands will unify the Reservation, allow the Tribe 
to better manage its natural resources and protect Summit Lake and its 
fish population thereby achieving cultural, economic and environmental 
benefits.
    Thank you for your consideration of this bill. On behalf of the 
Summit Lake Tribe I respectfully and strongly urge your support.
                                 ______
                                 
Prepared Statement of Hon. Kevin Day, Chairman, Tuolumne Band of Me-Wuk 
                                Indians
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Attachments
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                                 ______
                                 
      Prepared Statement of Hon. Reyn Leno, Tribal Council Chair, 
       Confederated Tribes of the Grand Ronde Community of Oregon
    Chairman Barrasso, Vice-Chair Tester, Members of the Committee:
    My name is Reyn Leno. I am the Tribal Council Chair of the 
Confederated Tribes of Grand Ronde in Oregon. I am proud to present 
testimony today on behalf of over 5,000 tribal members and appreciate 
the opportunity to provide views on S. 818, a bill to amend the Grand 
Ronde Reservation Act to make technical corrections, and S. 817, a bill 
to provide for the addition of certain real property to the reservation 
of the Siletz Tribe in the State of Oregon.
    I ask that my complete written testimony, which includes An 
Administrative History of the Coast Reservation authored by Dr. David 
G. Lewis and Dr. Daniel L. Boxberger; supporting resolutions from Polk 
and Yamhill County Commissioners; and correspondence pertaining to both 
bills from Representative Kurt Schrader, affected Indian Tribes and 
Counties be included in the record.
    Grand Ronde has worked tirelessly for over six years to pass 
legislation to rectify a problem created solely by the Federal 
Government's termination of the Tribe in 1954. This legislation has the 
bipartisan support of the entire Oregon Congressional Delegation and 
the unanimous support of the two affected Counties; and the Bureau of 
Indian Affairs. No opposition or concerns have been raised by other 
Tribes or affected interests.
    This simple and straightforward legislation has been the subject of 
four congressional hearings and was passed as a standalone bill by the 
House of Representatives under suspension of the rules on January 13, 
2014. Despite all of our efforts and the overwhelming support for the 
legislation, it failed to pass the Senate in the last Congress.
    S. 818 is a consensus-based legislative proposal to assist the 
Tribe in reacquiring lands within its original reservation. Based on 
the universal support of S. 818 and the importance of the legislation 
to the Tribe, I request passage of the legislation be a top priority of 
the Committee and the Senate.
    As a result of the Federal Government's allotment and termination 
policies, Grand Ronde lost both its federal recognition and its 
original reservation of more than 60,000 acres. Following the Tribe's 
termination in 1954, Tribal members and the Tribal government worked 
tirelessly to rebuild the Grand Ronde community.
    In 1983, these efforts resulted in the Grand Ronde Restoration Act, 
followed by the Grand Ronde Reservation Act in 1988, which restored 
9,811 acres of the Tribe's original reservation to the Grand Ronde 
people. The United States Congress itself recognized Grand Ronde's deep 
connection to Yamhill, Tillamook and Polk Counties in the 1983 Grand 
Ronde Restoration Act by expressly providing that Grand Ronde may take 
land into trust within these three counties for the purpose of 
establishing a Reservation. 25 U.S.C.  713(c) (3). Since 1988, the 
Tribe has pursued the goal of securing its sovereignty by acquiring 
additional parcels of its original reservation and providing on-
reservation jobs and services to Tribal members.
    The Tribe's restored reservation is located in the heart of the 
original Grand Ronde Reservation. Today, the Tribe owns a total of 
13,474 acres of land, of which 11,539 have reservation or trust status. 
Of the reservation/trust acres, 10,722 are forested timber land and the 
remaining 817 acres accommodate the Tribe's headquarters, housing 
projects, casino complex, and supporting infrastructure. Approximately 
1,934 remain in fee.
    The Tribe is hampered in its efforts to restore land within its 
original reservation by a lengthy and cumbersome Bureau of Indian 
Affairs (BIA) process. After it acquires a parcel in fee, the Tribe 
must prepare a fee-to-trust application package for the BIA. The BIA 
then processes the application as either an ``on-reservation 
acquisition'' or an ``off-reservation acquisition.'' Because the BIA 
Pacific Regional Office does not recognize that the Tribe has exterior 
reservation boundaries (instead, it has distinct parcels deemed 
reservation through legislation), all parcels are processed under the 
more extensive off-reservation acquisition regulations--even if the 
parcel is located within the boundaries of the Tribe's original 
reservation.
    After the land is accepted into trust, the Tribe must take an 
additional step of amending its Reservation Act through federal 
legislation to include the trust parcels in order for the land to be 
deemed reservation land. Grand Ronde has been forced to come to the 
United States Congress six times in the last 20 years to amend its 
Reservation Act to secure Reservation status for its trust lands. This 
process is unduly time consuming, expensive, bureaucratic, and often 
takes years to complete.
    In order to make both the fee-to-trust and reservation designation 
process less burdensome, Senator Wyden reintroduced S. 818, which 
would: (1) establish that real property located within the boundaries 
of the Tribe's original 1857 Executive Order reservation shall be (i) 
treated as on reservation land by the BIA, for the purpose of 
processing acquisitions of real property into trust, and (ii) deemed a 
part of the Tribe's reservation, once taken into trust; (2) establish 
that the Tribe's lands held in trust on the date of the legislation 
will automatically become part of the Tribe's reservation; and (3) 
correct technical errors in the legal descriptions of the parcels 
included in the Reservation Act.
    S. 818 does not authorize the transfer of any land to the Grand 
Ronde.
    S. 818 would not only save Grand Ronde time and money which could 
be better utilized serving its membership, but would also streamline 
the Interior Department's land-into-trust responsibilities to Grand 
Ronde, thus saving taxpayer money. At a time when federal financial 
support for Indian Country is dramatically decreasing, Grand Ronde 
should be afforded the tools necessary to reduce its costs and maximize 
savings.
    I would now like to provide Grand Ronde's views on S. 817.
    While Grand Ronde is opposed to S. 817 as currently drafted, we 
again reiterate our support for the legislation if it is amended to 
limit its scope to Lincoln County, consistent with the Siletz Indian 
Tribe Restoration Act. The legislation is materially different from 
Grand Ronde's bill and would significantly infringe on the rights of 
Grand Ronde and other tribes in western Oregon.
    S. 817, too, has been the subject of four congressional hearings. 
However, unlike Grand Ronde's legislation, significant opposition to S. 
817 has been raised by Members of Congress, as well as counties and 
Indian Tribes directly impacted by the legislation.
    S. 817 is opposed by three of the six counties affected by the 
legislation (Yamhill, Tillamook, and Lane County), two Indian Tribes 
(Grand Ronde and Confederated Tribes of Coos, Lower Umpqua and Siuslaw 
Indians), and Representative Suzanne Bonamici, who represents Grand 
Ronde and Yamhill County, has expressed concerns with it.
    It should also be noted, Representative Peter DeFazio, then ranking 
member of the House Resources Committee, who represents Lane County and 
the Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians 
Tribe, both of whom are opposed to S. 817, made the following comments 
regarding the Siletz legislation in the House Resources Committee last 
year; ``There have been concerns expressed to me by commissioners in 
six counties about this legislation and by other Representatives from 
Oregon who represent some of those six counties have also echoed those 
concerns. I'm not exactly certain how we satisfy the concerns of the 
counties but again that needs some work before this bill can move to 
the floor. So, I appreciate what the gentleman has done to accommodate 
me today, I appreciate the Chairman's work on this but more needs to be 
done before we would want to see this bill on the Floor of the House.''
    As a result of erroneous claims made by the Siletz Tribe regarding 
their historical connection to Yamhill and Tillamook Counties, each of 
the counties invited both Tribes to appear simultaneously before an 
open and public commission meeting to provide their tribe's legal, 
historical and cultural connections to each county. As a result of 
these meetings, Tillamook County and Yamhill County unanimously opposed 
the Siletz Tribe's asserted connections and primacy to their counties 
and both reaffirmed their opposition to the Siletz legislation.
    Enclosed are letters of opposition from Yamhill County, Tillamook 
County, Lane County, Grand Ronde and the Confederated Tribes of Coos, 
Lower Umpqua and Siuslaw Indians to the Siletz legislation.
    Unlike Grand Ronde's bill--which seeks to improve the process of 
acquiring lands in trust and return to reservation status those lands 
the Tribe reacquires within its original reservation--we believe the 
purpose of the Siletz legislation is to eliminate the historic claims 
of other tribes to the former Coast Reservation (which was set aside 
for all tribes in western Oregon) by equating the boundaries of the 
Siletz Reservation (established 1875) with the boundaries of the Coast 
Reservation (established 1855).
    The Coast Reservation, as described in the Executive Order dated 
November 9, 1855, was never designated exclusively for the Siletz. It 
was set aside for Indians throughout western Oregon, including the 
antecedent tribes and bands of the Grand Ronde, such as the tribes of 
the Willamette Valley, Umpqua Valley, and Rogue River Valley. The 
Siletz are aware that Grand Ronde has made its own historic claims to 
the Coast Reservation. Their proposed legislation is nothing more than 
a veiled attempt to eradicate the claims of Grand Ronde and other 
western Oregon tribes to the Coast Reservation.
    The Federal Government has not supported the Siletz's expansive 
view of its reservation boundaries, holding that the Tribe's 1977 
Restoration Act and its 1980 Reservation Act define its reservation 
boundaries. For example, a 1994 opinion issued by the Assistant 
Regional Solicitor of the Department of the Interior stated the 
following:

         . . . Congress made clear in the [Siletz] Tribe's 1977 
        Restoration Act that 'any reservation' for the Tribe is that 
        established pursuant to  711e of the Act. Thus, the 
        reservation established pursuant to the 1980 Act adopting the 
        reservation plan constitutes the Tribe's reservation for 
        purposes of the land acquisition regulations in 25 C.F.R. Part 
        151. \1\ (citations omitted)
---------------------------------------------------------------------------
    \1\ Definition of ``On-Reservation'' for Land Acquisition Purposes 
at Siletz Reservation, Memorandum Opinion by the Assistant Regional 
Solicitor, U.S. Department of the Interior, June 1, 1994.

    In subsequent litigation by the Siletz, challenging the BIA's 
interpretation of its land acquisition regulations, the Department of 
Justice supported the 1994 opinion by the Regional Solicitor. In a 
response brief filed on behalf of the Federal Government, the 
---------------------------------------------------------------------------
Department of Justice stated:

         [The 1994 opinion] analyzed the regulatory provision and 
        concluded that it would not be consistent with the intent 
        behind the regulations to consider all land located within the 
        boundaries of the former Siletz or Coast Reservation to be 
        within the Tribe's reservation. \2\
---------------------------------------------------------------------------
    \2\ Brief of U.S. Department of the Interior at 4, City of Lincoln 
v, Us. Dept. of the Interior and Confederated Tribes of Siletz Indians 
of Oregon, No. 99-330 (D. Or. June 23,2000).

    S. 817 is inconsistent with Section 7(d) of the Siletz Indian Tribe 
Restoration Act (25 U.S.C.  711e(d)), which provides that ``the 
Secretary shall not accept any real property in trust for the benefit 
of the tribe or its members unless such real property is located within 
Lincoln County, State of Oregon.'' The property described in the S. 817 
is much more expansive, covering Lincoln, Lane, Tillamook, Yamhill, 
Benton, and Douglas Counties.
    Moreover, since the legislation includes property in Tillamook and 
Yamhill Counties, the legislation infringes on sovereign interests of 
Grand Ronde. Specifically, Section 8 of the Grand Ronde Restoration Act 
(25 U.S.c.  713f(c)), provides that ``the Secretary shall not accept 
any real property in trust for the benefit of the tribe or its members 
which is not located within the political boundaries of Polk, Yamhill, 
or Tillamook County, Oregon.''
    Neither the authors of the Siletz legislation or the Siletz Tribe 
has ever been able to answer this fundamental question: What legal, 
historical or treaty obligation provides the authority for the Siletz 
Tribe to take land into trust under an expedited application process in 
counties specifically designated by Congress for the Grand Ronde 
Reservation in 1983?
    Yamhill County includes a significant portion of the Grand Ronde 
Reservation. While S. 817 allows for the easing of requirements to take 
land into trust for the Siletz in Yamhill County, no part of the Siletz 
Tribe's reservation, however, is located in Yamhill County, nor to my 
knowledge, has the Siletz Tribe ever attempted to take land into trust 
in Yamhill County.
    Additionally, Tillamook County is also included in S. 817. Many 
members of the Tillamook tribes (Nestucca, Nehalem, Salmon River and 
Tillamook) married into families living at the Grand Ronde Reservation, 
while continuing to hunt, fish and reside along the Oregon coast. The 
Siletz Tribe does not have the sole claim to the entire Tillamook 
Territory of the Oregon coast, and it would be inappropriate to allow 
them to assert such a claim today. Also, Grand Ronde owns land in 
Tillamook County, one of the counties identified by Congress in the 
Grand Ronde Restoration Act as an area where the Tribe can acquire 
trust land to re-establish its Reservation.
    S. 817 is also opposed by the Confederated Tribes of Coos, Lower 
Umpqua and Siuslaw Indians, as it infringes on their historic lands. 
Even though the Coos are separately recognized by the United States as 
an independent sovereign, the Siletz Tribe takes the position that it 
is the legal successor in interest to this tribal confederation. \3\
---------------------------------------------------------------------------
    \3\ See Letter from Delores Pigsley, Tribal Chairwoman, 
Confederated Tribes of Siletz Indians, to The Honorable Ron Wyden, 
United States Senator, at 2, April 17, 2013 (The Siletz Tribe is the 
legal successor in interest to the historical Coos, Siuslaw and Lower 
Umpqua Tribes of Indians.)
---------------------------------------------------------------------------
    While Grand Ronde, Confederated Tribes of Coos, Lower Umpqua and 
Siuslaw Indian and others opposed to the legislation can agree to 
disagree with the Siletz Tribe's claim of primacy to the Coast 
Reservation, the simple facts are that S. 817 is (1) is opposed by two 
Oregon Tribes with legitimate cultural and historical claims to the 
areas involved; (2) is opposed by three of the six counties affected by 
the legislation; and (3) Representative Bonamici who represents Grand 
Ronde and Yamhill County has expressed concerns with it.
    In conclusion, it has been insinuated the Grand Ronde and Siletz 
legislation are paired and that the Grand Ronde's legislation cannot 
advance without an agreement to accept the Siletz legislation.
    If true, I find this to be an affront to our sovereignty and 
government-to-government relationship. Forcing Grand Ronde to have 
accept the Siletz Tribe's rewriting of history and encroachment of its 
ceded and historical lands in order to rectify a serious wrong is 
inappropriate, violates tribal sovereignty and is plain just bad public 
policy.
    Representative Kurt Schrader, who represents both the Grand Ronde 
and Siletz Tribe and who has introduced both bills in the House of 
Representatives made it clear in his March 2013 letter to the House 
Resources Committee stating, ``Whereas H.R. 841 and H.R. 931 were 
introduced to address the individual needs of each Tribe, I feel it is 
important that each bill be considered by the committee on its own 
merits and support and should not be considered paired.''
    For these reasons, we urge the Committee not to proceed with 
further consideration of S. 817 in its current form.
    I thank you for your time and consideration today.
    Attachments
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                                 ______
                                 
 Prepared Statement of Hon. Lindsey Manning, Chairman, Shoshone-Paiute 
              Tribes of the Duck Valley Indian Reservation
    On behalf of the Shoshone-Paiute Tribes of the Duck Valley Indian 
Reservation (the ``Tribes''), I am pleased to submit testimony to the 
Committee on S. 1436, the ``Nevada Native Nations Lands Act.'' I thank 
Chairman Barasso and Vice Chairman Tester for convening a hearing, and 
I want to especially thank Senators Reid and Heller for their 
leadership in introducing S. 1436.
    I join the other Nevada Indian Tribes covered under S. 1436 in 
supporting this bill and I urge the Committee and the Senate to approve 
it. Similar legislation, S. 2480, was reported out of this Committee in 
2014, and H.R. 2455 passed the House of Representatives and was pending 
on the floor of the Senate at the end of the last session.
    The lands we seek to have conveyed to us in trust for our benefit--
approximately 82 acres--are currently managed by the United States 
Forest Service within the Department of Agriculture. The parcel is 
located approximately three miles south of our Reservation and near 
Mountain City, Nevada. We seek this parcel of land for the 11 
outbuildings, including housing units, detached garages, a corral and 
hay shed, for our use and management. The site was abandoned by the 
Forest Service in 2008 when the Service moved its District headquarters 
to Elko, Nevada.
    The Forest Service parcel constitutes a tiny portion of the 71,000 
acres of mostly Bureau of Land Management (BLM) lands that would be 
transferred to tribal control under the bill. The modest acquisition we 
seek will allow us to renovate some nine homes in close proximity to 
our Reservation and help us provide much needed housing, assist us 
recruit public safety, health professionals and other personnel to work 
on the Duck Valley Reservation and provide construction jobs to our 
members.
    The land transfer is supported by both local and national Forest 
Service officials and is not controversial. We, along with the Nevada 
Tribal Land Coalition Tribes, fully support S. 1436. The Shoshone-
Paiute Tribes' provision to S. 1436 (Sec. 3(b)) is required because the 
Service has limited statutory and regulatory authority to convey lands 
it manages to an Indian tribe and have such lands be held in trust by 
the United States for our benefit. The Service's primary authority for 
conveying land to non-federal parties comes from the Forest Service 
Facility Realignment and Enhancement Act of 2005, Pub. L. 109-54, 119 
Stat. 559, as amended (16 U.S.C.  580d), and legislation authorizing 
land exchanges. See 43 U.S.C.  1716 (Federal Land Policy and 
Management Act of 1976, as amended).
    Restrictions in both laws limit the quantity of land the Service 
may transfer, impose other conditions on the Service's conveyances and 
do not clearly provide that conveyance of Forest Service lands when 
made to a federally recognized Indian tribe are held in trust by the 
United States for the Indian tribe's benefit. Section 3(b) of S. 1436 
resolves this issue by providing that an approximately 82 acre parcel 
of U.S. Forest Service land in Elko County, Nevada is hereby declared 
to be held in trust by the United States for the benefit of the 
Shoshone-Paiute Tribes and made part of the Duck Valley Indian 
Reservation. We believe that the provision is entirely consistent with 
the government-to-government relationship that exists between the 
Shoshone-Paiute Tribes and the United States.
    The Duck Valley Indian Reservation is a remote, rural reservation 
that straddles the IdahoNevada border along the Owyhee River. The 
Reservation was established in 1877 and expanded in 1886 and 1910. 
Today, the Reservation encompasses 450 square miles in Elko County, 
Nevada and Owhyee County, Idaho.
    Over 1,700 tribal members, out of a population of just over 2,000 
enrolled members, reside on the Reservation. Tribal members make their 
living as farmers and ranchers, though many are employed by the Tribes. 
We are quite proud of the fact that for nearly two decades we have 
assumed the duties of the Secretary of the Interior and the Secretary 
of the Department of Health and Human Services under Indian Self-
Determination Act Self-Governance compacts. We also carry out federal 
programs of the Department of Housing and Urban Development and the 
Federal Highway Administration under agreements with those agencies. 
While we employ many tribal members, we also employ non-members who 
require affordable housing. Unfortunately, infrastructure on the Duck 
Valley Indian Reservation is in short supply, especially affordable 
housing.
    The closest communities to Owyhee with suitable housing are in 
Elko, Nevada, with a population of 51,000, located 98 miles to the 
south and Mountain Home, Idaho, with a population of 14,000, located 95 
miles to the north. With abandoned improvements less than 20 miles from 
Owyhee that we can renovate, the Forest Service property would help us 
address our housing needs, provide construction and training jobs, 
strengthen our governmental services and programs by assisting us 
retain health care professionals, law enforcement and conservation 
officers and other first responders and personnel and establish a 
presence on the site that has been absent for the last five years.
    Acquisition of the Forest Service parcel, located less than 20 
miles from our tribal headquarters, elementary and high schools, health 
clinic, fire department, tribal court and public safety offices, would 
provide us with additional housing units close to the Duck Valley 
Indian Reservation. Many of our members live in homes that require 
major renovation and repairs and we cannot house many health care 
providers, law enforcement personnel or other first responders.
    The Forest Service property we seek to have placed in trust 
comprises a small portion of the Service's Mountain City Ranger Station 
Administrative Site which the Service abandoned in 2008, when the 
Service relocated its District headquarters to Elko, Nevada, about 80 
miles to the south. The improvements require repairs that we are eager 
to make to ensure that they can be used safely to house members and 
tribal personnel we need to recruit.
    The land transfer authorized by S. 1436 will permit us to 
administer this site, renovate and utilize the improvements for our 
benefit. The improvements we plan to make would provide an opportunity 
to put our local people to work and held reduce the near 75 percent 
unemployment rate on our Reservation. We plan to utilize the renovation 
work as a training exercise through our Tribal Employment Rights 
Ordinance (TERO). We also plan to implement a youth employment training 
program to assist in the renovation of the units and other buildings. 
The work and training will benefit our members, as will the required 
routine maintenance of the property and improvements. The close 
proximity of the property to our Reservation and administrative offices 
will better ensure that we properly operate and maintain the site.
    In conclusion, for the reasons detailed above, conveyance of the 
Forest Service parcel in trust for our benefit will assist the 
Shoshone-Paiute Tribes address our housing shortage, strengthen our 
tribal government programs by helping us retain personnel who require 
affordable housing only miles from the Duck Valley Indian Reservation 
and create construction work and job training opportunities for our 
members.
    We look forward to working with Senators Reid and Heller and the 
Committee to see S. 1436 enacted into law and to then work with the 
Forest Service, BLM and the Bureau of Indian Affairs (BIA) to survey 
the property and place it in trust for our benefit.
    The Shoshone-Paiute Tribes would be pleased to answer any questions 
that the Committee may have concerning S. 1436, or provide additional 
information regarding the Forest Service parcel. We again thank 
Senators Reid and Heller for introducing the bill and including the 
Forest Service land transfer in the legislation.
    Thank you for affording the Shoshone-Paiute Tribes the opportunity 
to submit testimony to the Committee concerning S. 1436.
                                 ______
                                 
  Prepared Statement of Hon. Delores Pigsley, Chairman, Confederated 
                   Tribes of Siletz Indians of Oregon
Need for This Legislation
    The Confederated Tribes of Siletz Indians of Oregon (``Siletz 
Tribe'') is seeking federal legislation to recognize the boundaries of 
the Tribe's original 1855 reservation, for the purpose of being able to 
put former Siletz Reservation land to which the Tribe has re-acquired 
fee title, back into trust through the ``on-reservation'' process. It 
will put the Siletz Tribe on equal footing with other tribes in 
relation to their respective reservations. Our reservation was 
established by Executive Order of Franklin Pierce on November 9, 1855, 
pursuant to stipulations of several treaties of western Oregon Tribes.
    Because of our history of having been a terminated Tribe which has 
been ``Restored'' this legislation is needed in order to clarify the 
Secretary of Interior's authority to take land into trust for the 
Siletz Tribe under the Interior Department's fee-to-trust regulations 
at 25 C.F.R. Part 151. Enactment of this legislation will not create a 
reservation for the Siletz Tribe, and will not affect the jurisdiction 
or authority of state or local governments. Enactment of this 
legislation will also not affect the legal rights of any other Indian 
tribe.
    The purpose of the legislation is to allow for more timely 
processing of the Siletz Tribe's fee-to-trust applications by allowing 
those applications to be approved at the Bureau of Indian Affairs' 
regional level. Defining a geographic boundary for a tribe that lacks a 
recognized exterior reservation boundary provides an historical 
reference point for the Bureau to process those applications under the 
Department's on-reservation rather than off-reservation criteria in 25 
C.F.R,. Part 151. No land acquired in trust by the Siletz Tribe under 
the proposed legislation may be used for gaming purposes.
    The Siletz Tribe's modern situation is a product of a number of 
federal policies, laws and history that, have, adversely affected the 
Tribe over the last 175 years. Most Indian tribes have reservations 
with well-defined exterior reservation boundaries where the Tribe owns 
all or a large portion of the land within that boundary. While land 
within that boundary may have transferred to non-Indian ownership 
because of federal policies such as the Allotment Act, the reservation 
boundary remains intact for most federal purposes and for purposes of 
exercising tribal sovereign authority e.g.: if the Tribe reacquires fee 
title to a parcel within that boundary, it is treated as on-reservation 
fee to trust acquisition. The definition of ``Indian country'' under 
federal law, which defines the outer extent of tribal territorial 
authority, includes all land within the boundaries of an Indian 
Reservation. See 18 U.S.C.  1151. While this is a criminal statute, 
the definition has been applied by the U.S. Supreme Court in civil 
contexts also.
    The Siletz Tribe's 1855 original 1.1 million acre reservation was 
reduced over time by Executive Order, statute, the Allotment Act, and 
was finally, was completely lost by the Tribe's termination by federal 
legislation in 1954 (finalized 1956).
    When the Siletz Tribe was restored to federally recognized status 
in 1977 by federal statute, 25 U.S.C.  711 et seq., no lands were 
restored to the Tribe although the Act called for the future 
establishment of a reservation. 25 U.S.C.  711e. Congress created the 
new Siletz Reservation in 1980 and added to that reservation in 1994. 
Pub.L. No. 96-340, Sept. 4, 1980, 94 Stat. 1072; Pub.L. No. 103-435, 
Nov. 2, 1994, 108 Stat. 4566. Only a small percentage of the Tribe's 
original reservation lands were restored to the Tribe. The Siletz 
Tribe's reservation consists of approximately 50 separate, scattered 
parcels of reservation land. Each parcel has its own ``exterior'' 
boundary; there is no overall reservation boundary currently recognized 
by the BIA.
    The Indian Reorganization Act at 25 U.S.C.  465 authorizes the 
Secretary of Interior to acquire land in trust for Indian tribes. This 
provision was enacted as part of the IRA, to reverse the devastating 
loss of lands suffered by Indian tribes between 1887 and 1934 (over 90 
million acres) and to restore a minimally adequate land base for those 
tribes. The Siletz Restoration Act expressly applies this Section to 
the Siletz Tribe. 25 U.S.C.  711a(a). Federal regulations implementing 
this Section appear at 25 C.F.R. Part 151. These regulations 
distinguish between on-reservation and off-reservation trust 
acquisitions for purposes of processing tribal applications to take 
land into trust. These regulations do not establish or create a 
reservation or reservation boundary for land taken into trust. Because 
of the language in these federal regulations and the Siletz Tribe's 
history, any additional land the Siletz Tribe currently seeks to have 
placed in trust status under federal law is considered to be ``off-
reservation'' because the land is located outside the boundaries of 
what is recognized as the Siletz Tribe's current reservation (each of 
the 50 scattered parcels of reservation land).
    There are no geographic limitations on the Secretary of Interior's 
authority to take land into trust for an Indian tribe in under Section 
465. No regulations implementing this provision of the 1934 IRA were 
enacted until 1980. See 45 Federal Register 62036 (Sept. 18, 1980). No 
distinction between on and off reservation fee-to-trust requests by 
Tribes was included in the original regulations. It was not until 
passage of the Indian Gaming Regulatory Act in 1988 and the subsequent 
requests from some tribes to place off-reservation land in trust for 
gaming purposes that changes to the regulations were considered. The 
Department began enforcing an internal on-reservation/off-reservation 
fee-to-trust policy in 1991, and in 1995 added this distinction into 
the fee-to-trust regulations. See 60 Federal Register 32879 (June 23, 
1995). No consideration or discussion of the disadvantaged situation or 
needs of terminated and restored tribes like the Siletz Tribe's factual 
situation was included in making these regulatory changes.
    The current fee-to-trust regulations distinguish between on-
reservation trust acquisitions (25 C.F.R.  151.10) and off-reservation 
trust acquisitions (25 C.F.R.  151.11). The requirements for a Tribe 
obtaining land in trust off-reservation are more restrictive, more 
costly and time- consuming, and require additional justification. 
Because of the Siletz Tribe's unique history, all fee-to-trust requests 
by the Tribe are currently reviewed under the off- reservation process, 
even within the boundaries of the Tribe's historical reservation. This 
application of federal law and regulations discriminates against the 
Siletz Tribe in relation to treatment of other Indian tribes that can 
have fee-to-trust applications processed under the on-reservation 
provisions of the regulations within the boundaries of their historical 
reservations.
    S. 817 will place the Siletz Tribe on the same footing as all other 
federally- recognized Indian tribes who did not suffer through the 
tragedy of termination or the complete loss of their reservations. It 
will treat the Siletz Tribe's fee-to-trust requests within its 
historical reservation the same as fee-to-trust requests from other 
tribes within their historical reservations. It will facilitate the 
gradual re-acquisition of a tribal land base for the Siletz Tribe so 
the Tribe can meet the needs of its members. It will reduce cost, time 
and bureaucratic obstacles to the Tribe obtaining approval of its land 
into trust requests. The legislation is consistent with the definition 
of on- reservation as set out in the current fee-to-trust regulations 
at 25 C.F.R.  151.2(f).
    The Siletz Tribe has an ongoing critical need to acquire additional 
lands in trust to meet the needs of the Tribe and its members. The 
Tribe received a modest approximately 3630 acres in trust as a 
Reservation in 1980, comprised of 37 scattered parcels. This land was 
primarily former BLM timber lands, and was calculated at the time to 
allow the Tribe to generate revenue to provide limited services to its 
members and to support tribal government. The revenue generated from 
these parcels has been insufficient to meet growing tribal needs. The 
Reservation Act also returned a tribal cemetery and Pow-Wow grounds to 
the Tribe. Since 1980 the Tribe has obtained additional 804 acres of 
land in trust to meet some of the Tribe's needs for housing, health and 
social services, natural resources, and economic development including 
a gaming operation. Currently the Tribe has a total of 63 separate 
trust properties, for a total acreage of 4434.01 acres.
    Tribal needs have not been met, however, and the Tribe has a 
continuing need to re-acquire former reservation lands and have them 
held in trust. This is a long-term objective of the Tribe because of 
the Tribe's limited financial resources, which only allow it to 
purchase land a little at a time. S. 817 is identical to legislation 
introduced in House of Representatives by Congressman Kurt Schrader of 
Oregon. This legislation was also introduced in the 112th and 113th 
Congresses, where it received legislative hearings in the House 
Subcommittee on Indian & Alaska Native Affairs and the Senate Committee 
on Indian Affairs.
    The Administration testified in support of the Siletz bill in July 
2012. In responses to questions for the record from the Subcommittee on 
Indian & Alaska Native Affairs, the Bureau of Indian Affairs put to 
rest allegations against the bill made by the Confederated Tribes of 
Coos, Lower Umpqua and Siuslaw Indians, and the Confederated Tribes of 
the Grand Ronde Community. The Bureau confirmed that the Siletz Tribe 
has always been the only recognized tribal governing body over the 
original 1855 Siletz Coast Reservation.
    In addition, at mark-up in June 2013, the House Natural Resources 
Committee amended the Siletz legislation to state that ``nothing in 
this Act or the amendment made by this Act, shall prioritize for any 
purpose the claims of any federally recognized Indian tribe over the 
claims of any other federally recognized Indian tribe.'' This amended 
legislative language was later included in H.R. 5701 (the Western 
Oregon Indian Tribal Lands Act), which passed the House of 
Representatives by Voice Vote in December 2014. This legislation lays 
to rest the spurious claims of other tribes that this Siletz 
legislation would somehow adversely affect alleged legal claims they 
have to the original Siletz Reservation.
    The legislative language in S. 817 is identical that passed by the 
House last year, and would have passed by unanimous consent in the 
Senate, if it had not been for an unfortunate, unrelated political 
situation in the final seconds of the Congress.
Historical and Legal Background
    Numerous bands and tribes of Indians held territories in what 
became Western Oregon, from the crest of the Cascade Mountains to the 
Pacific Ocean. Early federal Indian policy was to enter into treaties 
with Indian tribes to obtain the cession of their aboriginal lands to 
clear title for non-Indian settlement. A ``reservation policy'' evolved 
to place the Indians who entered into these treaties on small remnants 
of their aboriginal lands, but to open most of those lands for future 
development and settlement by non-Indian settlers. In most cases each 
tribe that entered into a treaty had a small reservation confirmed 
somewhere within its aboriginal territory. Beginning in the 1850s, a 
new reservation policy was established, particularly along the west 
coast, to place as many tribes as possible on one reservation. This 
freed up additional land for settlement and simplified administration 
of the remaining Indians. See Charles F. Wilkinson, The People Are 
Dancing Again: A History of the Siletz Tribe (U. of Washington Press 
2010).
    Treaties negotiated with western Oregon Indian tribes in the early 
1850s by Anson Dart were rejected by the Senate because they did not 
implement this new policy and instead provided for individual 
reservations within a tribe's historical territory. The subsequent 
Indian Superintendent in Oregon in the 1850s, Joel Palmer, was given 
the task of negotiating treaties with all of the tribes in western 
Oregon and finding one permanent reservation where as many tribes and 
bands as possible could all be settled. Superintendent Palmer first 
considered moving all the western Oregon tribes east of the Cascade 
Mountains to the Klamath Reservation, but none of those tribes would 
agree to go there. In early 1855, Palmer unilaterally withdrew from 
non-Indian settlement what would become the Siletz or Coast 
Reservation, and communicated its suitability as the permanent 
reservation for all the western Oregon tribes to his superiors in 
Washington, D.C. Because of the long time lag in communication between 
the east and west Coasts in the 1850s, Palmer's provisional set-aside 
of the Siletz Coast Reservation on his own authority on April 17, 1855 
was not approved by the Department of Interior until July of that year. 
After further review and discussion, the Secretary of Interior 
recommended that this area of land be permanently set aside as a 
reservation for these tribes and bands, and this recommendation was 
confirmed by Executive Order on November 9, 1855.
    There was no single method or procedure by which the tribes and 
bands that are part of the Confederated Tribes of Siletz Indians 
entered into treaties or came to the Siletz Coast Reservation. The 
Siletz Tribe is a legal successor in interest to tribes and bands of 
Indians that are parties to seven ratified treaties (Treaty with the 
Rogue River, Sept. 10, 1853, 10 Stat. 1018; Treaty with the Umpqua-Cow 
Creek Band, Sept. 19, 1853, 10 Stat. 1027; Treaty with the Rogue River, 
Nov. 15, 1854, 10 Stat. 1119; Treaty with the Chasta, Nov. 18, 1854, 10 
Stat. 1122; Treaty with the Umpqua and Kalapuya, Nov. 29, 1854, 10 
Stat. 1125; Treaty with the Molala, Dec. 21, 1855, 12 Stat. 981; Treaty 
with the Kalapuya, Jan. 22, 1855, 10 Stat. 4 1143), and one unratified 
treaty (Treaty with the Tilamooks and other confederated tribes and 
bands residing along the coast, Aug. 11,1855 (``Coast Treaty'')) , and 
who, in whole or in part, were subsequently removed to the Siletz Coast 
Reservation as their permanent treaty reservation. To complicate things 
further, there are also several additional unratified treaties 
negotiated in 1851 with the northern Oregon coastal tribes and bands, 
known as the Anson Dart treaties. Indians from all of these tribes and 
bands were also removed or ended up on the Siletz Coast Reservation 
over time.
    In some of these treaties, such as the 1854 Rogue River Treaty and 
the unratified Coast Treaty, all of the signatory tribes were 
``confederated'' by the federal government into one new composite 
tribe. These confederated tribes became the tribal governing authority 
on the Siletz Coast Reservation. The federal government treated other 
tribes that were settled on the Siletz Coast Reservation as becoming 
confederated with this new tribal reservation-based confederation. The 
Confederated Tribes of Siletz Indians is the federally-recognized Tribe 
that is the legal and political successor to all of these original, 
historical tribes. See United States v. Oregon, 29 F.3d 481, 485-86 
(9th Cir.1994)(Yakama Nation comprised of all the bands and tribes of 
Indians who moved to the reservation under the Yakama Treaty; Nez Perce 
Tribe comprised of all Nez Perce Bands who signed Nez Perce Treaty and 
moved to diminished Nez Perce Reservation).
    Movement of the tribes, bands and Indians to the Siletz Reservation 
was also not clean or uniform. Some tribes moved in several waves to 
the Siletz Reservation, at different times. In some cases only parts of 
the tribe ended up on the Reservation. In other cases individuals or 
small groups who were moved to the Siletz Reservation sometimes left 
the Reservation and returned to their aboriginal areas; other (few) 
individuals hid and were never moved. Some of the individuals who left 
the Siletz Reservation and returned to their aboriginal areas were 
rounded up and returned to the Siletz Reservation. For example, 
individual members of Coos and Lower Umpqua ancestry who left the 
Siletz Reservation and returned to their aboriginal area were 
subsequently forcibly returned to the Reservation in round-ups 
conducted by the Interior Department with military assistance.
    In all of these cases and under all of these treaties, both 
ratified and unratified, the tribes and bands in question were moved to 
the Siletz Coast Reservation and became part of the Confederated Tribes 
of Siletz Indians. This early history of the Siletz Tribe and Siletz 
Reservation is set out in various federal court decisions, including 
Rogue River Tribe v. United States, 64 F.Supp. 339, 341 (Ct.Cl. 1946); 
Alcea Band of Tillamooks v. United States, 59 F.Supp. 934, 942 (Ct.Cl. 
1945); Coos, Lower Umpqua, and Siuslaw Indian Tribes v. United States, 
87 Ct. Cl. 143 (1938); and Tillamook Tribe of Indians v. United States, 
4 Ind. Cl. Comm'n 31-65 (1955).
    The settlement of various tribes on the Siletz Reservation is also 
documented in various academic publications such as a report prepared 
by Historian Dr. Stephen Dow Beckham. See ``The Hatch Tract: A 
Traditional Siuslaw Village Within the Siletz Reservation, 1855-75,'' 
prepared by Dr. Stephen Dow Beckham for the Confederated Tribes of 
Coos, Lower Umpqua and Siuslaw, Dec. 4, 2000, pp.12-14 (``On July 20, 
1862, Linus Brooks, Sub-Agent, confirmed that the removal of the Coos, 
Lower Umpqua, and Siuslaw Indians onto the Siletz Reservation was 
complete,'' and ``On July 21, 1864, Sub-Agent George W. Collins 
confirmed the presence of the tribes on the Siletz Reservation''.).
    The Confederated Tribes of Siletz Indians was recognized as the 
governing body and tribe representing all of the tribes and bands 
settled on the Siletz Reservation as early as 1859. Traders License 
issued by the Siletz Indian Agent on June 16, 1859, to trade with ``The 
Confederated Tribes of Indians . . . within the boundary of the Siletz 
Indian agency district Coast Reservation.''; Tillamook Tribe of 
Indians, supra, 4 Ind. Cl. Comm'n at 31 (``Confederated Tribes of 
Siletz Indians, . . . a duly confederated and organized group of 
Indians having a tribal organization and recognized by the Secretary of 
the Interior of the United States'' is the only entity with standing to 
prosecute claims against the United States involving the Siletz 
Reservation).
    It has consistently been recognized by the Interior Department as 
the only tribe representing the original Siletz or Coast Reservation 
since that time. As such it is the legal and political successor to all 
of the tribes and bands of Indians settled on or represented on the 
Siletz Reservation. This legal principle was established and has been 
repeatedly confirmed in the U.S. v. Washington Puget Sound off-
reservation treaty fishing rights litigation. See, e.g., United States 
v. Washington, 593 F.3d 790, 800 at n.12 (9th Cir. 2010)(``Samish''), 
citing to U.S. v. Washington, 384 F.Supp. 312, 360 (W.D.Wash. 
1974)(Lummi) and to U.S. v. Washington, 459 F.Supp. 1020, 1039 (W.D. 
Wash. 1978)(Swinomish)(Lummi and Swinomish successors in interest to 
tribes and bands settled on their reservations under Treaty of Point 
Elliott; both tribes successors in interest to the Samish Indian 
Tribe); Evans v. Salazar, 604 F.3d 1120, 1122 n. 3 (9th Cir. 2010), 
citing U.S. v. Washington, 459 F.Supp. 1020, 1039 (W.D.Wash. 
1978)(Tulalip Tribes recognized governing body and successor to tribes 
and bands settled on the Tulalip Reservation under the Treaty of Point 
Elliott); U.S. v. Washington, 520 F.2d 676, 692 (9th Cir. 
1975)(Muckleshoot Tribe, which did not exist at the time of the Treaty 
of Point Elliott and Treaty of Medicine Creek, recognized as a tribe by 
the United States and is a successor in interest to its constituent 
tribes which were settled on the Muckleshoot Reservation under the two 
treaties).
    Two other legal principles, confirmed by Ninth Circuit Court of 
Appeals decisions, also confirm the Confederated Tribes of Siletz 
Indians as the only federally-recognized Indian tribe representing the 
tribes and bands who were settled on the Siletz Reservation, and as the 
only Indian tribe with a legal interest in and title to the original 
1855 Siletz or Coast Reservation. The first legal principle involves 
groups or bands of Indians who either refused or did not move to the 
reservation designated for them under a treaty or other federal action, 
or who subsequently left that reservation or refused to move to a 
reconfigured reservation. In U.S. v. Oregon, 29 F.3d 481, 484-85 (9th 
Cir. 1994), the Ninth Circuit rejected the claim of the Colville 
Confederated Tribes to have treaty and successorship rights under the 
Yakama and Nez Perce Treaties of 1855 because bands of the tribes that 
had signed those treaties had refused to move to the reservations 
established under those treaties, or had subsequently left those 
reservations, and instead had ended up settling on the Colville 
Reservation. The Ninth Circuit concluded that those bands, by refusing 
to move to the treaty reservations or subsequently leaving those 
reservations, had abandoned their right to treaty status and had lost 
their right of successorship to the original tribes. The confederated 
tribes created by the United States and settled on a reservation 
acquired the successorship rights to all of those original tribes and 
bands of Indians.
    Like the situation of Lummi and Swinomish, whose reservations were 
set aside for all the Indians who signed the Point Elliott Treaty, both 
the Siletz and Grand Ronde Reservations were expressly set aside for 
settlement of the Willamette Valley Tribes, and members of those tribes 
settled on both the Siletz and Grand Ronde Reservations. Under the 
Ninth Circuit's decisions in U.S. v. Washington, both the Siletz and 
Grand Ronde Tribes are successors to the historical Willamette Valley 
Tribes and the three ratified treaties signed by those tribes. There is 
no dispute in the federal case law on this point.
    This legal principle also applies to and refutes the alleged claims 
of the modern day Confederated Tribes of Coos, Lower Umpqua and Siuslaw 
Indians (comprised of individual Indians from those tribes who either 
refused to move to the Siletz Coast Reservation or who subsequently 
left the Siletz Reservation and moved back to the Coos Bay area) to 
have legal claim to the original Siletz Coast Reservation. It also 
applies to and refutes the claim of the Confederated Tribes of the 
Grand Ronde Community of Oregon to be a successor to the Rogue River 
Tribe (a remnant band or small group of the larger Rogue River Tribe 
refused in 1857 to move to the Siletz Coast Reservation, designated as 
the permanent reservation for that Tribe, and stayed instead on what 
later became the Grand Ronde Reservation; federal officials confirmed 
in correspondence that the Rogue River ``tribe'' moved to the Siletz 
Reservation in 1857), and the Siletz Tribe has a claim, through 
successorship to that tribe, to the Siletz Coast Reservation.
    The second additional legal principle that applies to the Siletz 
Tribe's factual situation involves where one tribe is not originally 
settled on a reservation under a treaty, but individual members of that 
``unaffiliated'' tribe end up on the reservation of another tribe, 
either by obtaining allotments on that reservation or for other 
reasons. This was the situation in United States v. Suquamish Indian 
Tribe, 901 F.2d 772, 777 (9th Cir. 1990), where the Ninth Circuit 
rejected the Suquamish Tribe's claim to be the successor to the 
Duwamish Tribe on the grounds that ``individual Duwamish had moved to 
and settled at'' the Suquamish Reservation, obtaining allotments there. 
The court found that no group or band of Duwamish moved there. Id.2 
This test was clarified in United States v. Oregon, supra, where the 
Ninth Circuit concluded that for one tribe to be able to claim 
successorship to another tribe, the first tribe would have to show ``a 
cohesive communal decision by the Duwamish to unite with the 
Suqamish,'' otherwise the Suquamish ``could not successfully claim that 
it was a `political successor' to the treaty time Duwamish Tribe.'' 29 
F.3d at 484. Movement and settlement of individual Indians does not 
automatically result in successorship, under settled principles of law.
    This legal principle applies to and settles the claims of the Grand 
Ronde Tribe that it has an interest in the original Siletz Coast 
Reservation through its asserted successorship to the Nehalem Tribe, 
for example. Case law to which the Grand Ronde Tribe was a party and is 
therefore bound concluded that the Nehalem Tribe had moved as a tribe 
to the Siletz Coast Reservation, and that the Siletz Tribe is the 
successor to the Nehalem Tribe: ``Plaintiffs Chinook, Clatsop and the 
Ne-ha-lum tribes were placed on the Coast Reservation.'' Alcea Band of 
Tillamooks, supra, 59 F.Supp. at 954. Grand Ronde claims successorship 
to the Nehalum Tribe only because a few individual Nehalem Indians 
allegedly moved at some point to the Grand Ronde Reservation and 
married Indians residing there. Under established federal precedent, 
the fact that some individual Nehalem Indians moved to the Grand Ronde 
Reservation does not make the Grand Ronde Tribe a successor to the 
Nehalem Tribe. Grand Ronde claims that the Nehalems and some others 
coastal Indians were counted under the Grand Ronde Agency's census of 
Indians in the 1860s and 70s and therefore must have resided on the 
Grand Ronde Reservation, but the historical documentation shows 
conclusively that these Indians actually resided on the Siletz Coast 
Reservation or close by along the Coast, that they subsequently moved 
to the Siletz Reservation and were supervised by the Siletz Indian 
Agency, and that the Grand Ronde Indian Agency improperly attempted to 
assert jurisdiction over them, an assertion that was expressly rejected 
several times by his superiors, including Special Inspectors (after 
investigation) and the Commissioner of Indian Affairs. Censuses of 
Indians on the Grand Ronde Reservation in the early 1900s that list 
tribal affiliation show no Nehalem, Tillamook or other coastal Indians.
    The Court in U.S. v. Oregon contrasted the factual situation of the 
Suquamish and Duwamish Tribes with that of the Muckleshoot and Tulalip 
Tribes, who were not tribes at the time of the treaty but became tribes 
recognized by the federal government comprised of small bands of 
Indians who signed the treaties and moved as bands to the designated 
reservation. 901 F.2d at 776. Those bands who resided together on the 
same reservation then ``became known as the Tulalip and Muckleshoot 
Indians.,'' Id., and were recognized by the federal government as their 
own Indian tribes with authority over their reservations.
    The Siletz Reservation has been referred to by the federal 
government between its establishment in 1855 and diminishment in 1875 
as the Siletz or Siletz Coast Reservation. The appellation ``Coast'' 
Reservation was associated with the original reservation because it was 
located along the Oregon Coast and the original reservation was set 
aside in part for the Indian tribes and bands who were signatories to 
the unratified 1855 treaty, which was negotiated with the ``chiefs and 
headmen of the confederated tribes and bands of Indians residing along 
the coast.''
    After official establishment by Executive Order on November 9, 
1855, it was referred to variously as the Siletz, Siletz or Coast, or 
Siletz/Coast Reservation. Use of the term Siletz Reservation by itself 
was common, see, e.g., Letter dated July 20, 1857 (Annual Report of 
Grand Ronde Indian Agency)(``Early in the month of May the greater 
portion of the Rogue River and all of the Shasta Indians were removed, 
with their own consent, to the Siletz coast reservation . . . In 
consequence of the removal of the majority of these tribes to the 
Siletz reservation'') , and Congress formally referred to the 
Reservation as the Siletz Reservation in legislation enacted in 1868 
and 1875. Act of July 27, 1868, 15 Stat. 198, 219(``For Indians upon 
the Siletz reservation . . . to compensate them for losses sustained by 
reason of executive proclamation taking from them that portion of their 
reservation called Yaquina Bay''); Act of March 3, 1875, 18 Stat. 420, 
446(``Secretary of the Interior . . . is authorized to remove all bands 
of Indians now located upon the Alsea and Siletz Reservation, set apart 
for them by Executive order dated November ninth, eighteen hundred and 
fifty-five''[and place them within the remaining portion]). After 1875, 
the reservation was referred to exclusively as the Siletz Reservation.
    The Siletz Coast Reservation was established by Executive Order on 
November 9, 1855 as a permanent homeland for all the Tribes and Bands 
of Indians in western Oregon, who pursuant to the unratified August 
1855 treaty were to be confederated together and settled upon it. That 
treaty's purpose was to make the remaining land in Oregon west of the 
Cascades available for non-Indian settlement. The original Siletz Coast 
Reservation stretched for over 100 miles along the central Oregon 
Coast, from the ocean to the western boundary of the 8th Range, west of 
the Willamette Meridian, around 1.1 million acres.
    Tribes with ratified treaties such as the Rogue Rivers, Shastas and 
Umpquas were moved to the Siletz Coast Reservation by May 1857 in 
fulfillment of the terms of their treaties to settle them on a 
permanent reservation. The Siletz Coast Reservation, under well-
established case law, became a formal treaty reservation at that time. 
Portions of the Siletz Reservation were then opened to settlement over 
the coming years by various federal actions--an Executive Order in 
1865, a federal statute in 1875, and an Agreement and legislation 
implementing allotment and surplusing of the remaining reservation in 
1892, confirmed by Congress in 1894.
    Various Court of Claims and Indian Claims Commission cases have 
addressed whether the tribes and bands that were located on the Siletz 
Coast Reservation were entitled to compensation for the taking of their 
aboriginal lands or for the various diminishments of the Reservation. 
These cases--examples include the Rogue River, Alcea Band of 
Tillamooks, Coos, Lower Umpqua and Siuslaw Indian Tribes, and Tillamook 
Tribe of Indians, are cited above. These cases document the connection 
of the Siletz Tribe to the original Siletz Coast Reservation. As such, 
they also show that the original Siletz Coast Reservation meets the 
definition of on-reservation as set out in the fee-to-trust regulations 
at 25 C.F.R.  151.2(f): ``[W]here there has been a final judicial 
determination that a reservation has been disestablished or diminished, 
Indian reservation means that area of land constituting the former 
reservation of the tribe.'' See Citizen Band Potawatomi Indians v. 
Collier, 17 F.3d 1325 (10th Cir. 1998)(processing fee-to-trust request 
within former reservation of Potawatomi Tribe). Enacting S.817 will 
allow the Siletz Tribe to request fee-to-trust transfers on the same 
basis as other Indian tribes within their former reservations.
Response to Specific Issues
    Some questions have been raised before this hearing about specific 
aspects of the proposed legislation. I want to address some of those 
issues here.
    1. Does this bill make the original Siletz Reservation into a 
reservation for the Siletz Tribe, or create tribal jurisdiction or 
authority over the original Siletz Reservation area?
    Answer. No. All S.817 does is to designate a geographic area within 
which the Siletz Tribe's fee-to-trust requests will be processed under 
the BIA's on-reservation rather than off- reservation fee-to-trust 
criteria. The jurisdictional status of individual fee-to-trust parcels 
changes once those parcels go into trust status, but that happens 
whether or not this bill passes, and whether or not the on-reservation 
or off-reservation criteria are used.
    The existing jurisdictional status of the original Siletz Coast 
Reservation is not affected by this legislation. This issue was 
addressed by the federal courts in Yankton Sioux Tribe v. Podhradsky, 
606 F.3d 994, 1013 (8th Cir. 2010)(``While it is true that the original 
1858 [reservation] boundaries are no longer markers dividing 
jurisdiction between the Tribe and the state, that does not mean they 
have lost their historical relevance for the Secretary's discretionary 
acts [of taking land into trust pursuant to 25 U.S.C.  465]).''
    Under S. 817, the original 1855 Siletz Reservation will become an 
historical reference point for the BIA in deciding whether to process a 
Siletz fee-to-trust application as on- reservation or off-reservation 
under the fee-to-trust regulations at 25 C.F.R. Part 151. The bill does 
nothing more.

    2. Does the Siletz Restoration Act limit the Siletz Tribe to taking 
land into trust only within Lincoln County?
    Answer. No. The original Siletz Reservation extends into six 
current Oregon counties, although the headquarters of the original 
Siletz Reservation ws located in what became Lincoln County when that 
portion of the Reservation's settlers broke off from Benton County in 
1893. A map overlaying the original reservation boundary with current 
jurisdictions shows that two of the counties have barely any land 
involved. Some parties have alleged that federal law--the Siletz 
Restoration Act--limits the Siletz Tribe to taking land into trust only 
within Lincoln County. The section of the Restoration Act in question, 
at 25 U.S.C.  711e(d), is addressed only to the original reservation 
plan called for by the Restoration Act. It limits any land designated 
under that reservation plan to Lincoln County. This plan was finalized 
in 1979.
    The question of whether this provision of the Siletz Restoration 
Act, 25 USC  711e(d), limits the BIA permanently from taking land in 
trust for the Siletz Tribe beyond Lincoln County was addressed 
immediately after passage of the Siletz Restoration Act by the Office 
of the Solicitor for the Department of Interior, in 1978 and 1979. 
Those opinions concluded that the statutory restriction at  711e(d) 
applied only to the original Siletz Reservation Plan, and did not limit 
the authority of the Secretary from taking land in trust for the Siletz 
Tribe elsewhere. This conclusion was reached in part because the Siletz 
Restoration Act expressly makes 25 U.S.C.  465--Section 5 of the IRA--
applicable to the Siletz Tribe, without restriction. There is no 
geographic restriction under that statute to taking land into trust. 
This is not true of any other restored/recognized tribe in Oregon; the 
other Oregon Restoration/Recognition Acts do not contain this express 
language. In its response to questions from the 2012 hearing on 
Siletz's legislation, supra, the BIA reaffirmed its position on this 
issue.
    The Siletz Tribe has acquired land in trust outside of Lincoln 
County since Restoration. For example, the Tribe has a 20-acre parcel 
of land in trust in Salem, Marion County, Oregon, within the Tribe's 
historical territory/ceded lands.

    3. Will H.R.6141 allow the Siletz Tribe to acquire land in trust 
and use that land for gaming under the Indian Gaming Regulatory Act?
    Answer. No. There is an express prohibition in S. 817 on using land 
acquired in trust under the bill for gaming. The Siletz Tribe already 
has a successful gaming operation at Chinook Winds Casino Resort on its 
current reservation. The Tribe does not need to acquire land in trust 
for a gaming operation within its original reservation boundaries.
                                 ______
                                 
   Prepared Statement of Hon. Stacy Dixon, Chairman, Tribal Business 
                  Council, Susanville Indian Rancheria
    On behalf of the Susanville Indian Rancheria (``Rancheria'' or 
``Tribe''), I am pleased to submit the statement below on S. 1761, a 
bill that would place approximately 301 acres of federal land, 
comprised of rugged, rocky terrain, located in the Hidden Valley area 
in California into trust for the benefit of the Rancheria. This land, 
defined as the area in the ``Conveyance Boundary'' in S. 1761, is 
adjacent to existing Rancheria trust lands upon which tribal housing is 
located. Years ago, the Bureau of Land Management (BLM) identified the 
area in the Conveyance Boundary as suitable for disposal under the 
Federal Land Management and Policy Act because it is an isolated parcel 
of BLM land, making it difficult to manage.
    We thank Chairman John Barrasso and Vice Chairman Jon Tester for 
holding this legislative hearing on S. 1761. Further, we deeply 
appreciate the efforts of Senator Barbara Boxer and Senator Dianne 
Feinstein, our Senators, for introducing S. 1761, which is the 
companion bill to H.R. 2212, introduced by Rep. Doug LaMalfa, our 
Representative in the House of Representatives.
Background on Susanville Indian Rancheria
    The Rancheria is a federally recognized Indian tribe in rural 
Northeastern California with aboriginal ties to four distinct tribes: 
Mountain Maidu, Northern Paiute, Pit River and Washoe. These tribes' 
treaties were among the 18 treaties negotiated with the U.S. between 
1851-52 that would have created reservations in California totaling 
11,700 square miles. However, with the discovery of gold in California 
in 1848 and the interest of California lawmakers in accommodating the 
interests of large landowners, new settlers, and miners, none of these 
treaties were ratified by the U.S. Senate. On July 8, 1852, the U.S. 
Senate voted in executive session to reject the 18 treaties--a fact 
that would remain undisclosed until the U.S. Senate removed the 
injunction of secrecy in 1905.
    As a result of the unratified treaties and the Land Claims Act of 
1851, our lands were taken from us. Our people became homeless and 
experienced extreme suffering, torture, and starvation through 
indentured servitude of Native Americans legalized in California in 
1850. After 70 years of severe hardship, on August 15, 1923, the 
federal government purchased and put into trust 30 acres for the 
Rancheria under the Landless and Homeless Indian Act. Subsequently, on 
October 14, 1978, Congress enacted Public Law 95-459, which transferred 
120 acres of BLM land into trust for the Rancheria, which forms a 
portion of our Upper Rancheria. Tribal residential housing and our 
water storage tanks are located on the Upper Rancheria. The area in the 
Conveyance Boundary that would be placed into trust for the benefit of 
the Rancheria under S. 1761 is adjacent to our Upper Rancheria trust 
lands.
    Accompanying this statement are attachments that contain the map of 
the Conveyance Boundary referenced in S. 1761 and pictures of our Upper 
Rancheria and the area in the Conveyance Boundary.
Susanville Indian Rancheria's Connections to Area in Conveyance 
        Boundary in S. 1761
    In 1887, Congress passed the General Allotment Act that divided 
lands into parcels for individual Indians. The Act forced the division 
of tribal government-held lands into individual Indian-owned parcels 
and opened ``surplus'' lands to non-Indian settlement. The area in the 
Conveyance Boundary and much of the land adjacent to it was tribally 
held land that was then allotted to individual Indians. The Peconom and 
Streshley families, whose direct descendants are Rancheria members, had 
allotments adjacent to the area in the Conveyance Boundary. Other 
ancestors of Rancheria tribal members that had allotments nearby 
included Alfred Foxey, Eliza Norman, Nettie Norman, Edith Buckskin, 
George Evans, Fred Wilson, Sally Norman, Charlie Jackson, Billy 
Harrison, Kitty Harrison, Birdie Norman, Will Norman, Cora Cook, 
Charley Norman, and William Taylor. Unfortunately, the land granted to 
most allottees in this region was not viable for grazing or farming, 
and division of land between heirs upon the allottees' deaths resulted 
in land fractionalization and loss of land. Further, many Indian 
allotments were seized over time by predatory tax collectors for back 
taxes and sold to others. The Rancheria is committed to reacquiring 
aboriginal lands taken from us, including the land set forth in S. 1761 
due to ill-conceived federal and state laws, forced relocation, 
massacre, starvation, and other atrocities.
    As you can see from the pictures in the attachments, the terrain of 
the area in the Conveyance Boundary is very rugged and hilly with large 
volcanic rock deposits. However, this land contains numerous cultural, 
historical, and archeological sites of great significance to the 
Rancheria. We seek to protect these sites and restore the natural 
ecological conditions of the land. The land and vegetation in area 
consist primarily of volcanic rock, juniper, sagebrush, bitterbrush, 
great basin wild rye and other herbaceous plants, bulbs, corms and 
roots that are important to the Rancheria for food, medicine, and 
basket-making. Some of the best Indian medicine grows in this vicinity, 
such as lokbom, an Indian tea that is boiled for stomach ailments and 
bukom, or ``wild sunflower,'' which is eaten to heal sore throats as 
well as Sego Lily, Wild Carrot, Camas, and Brodiaea. The area contains 
mortar rocks that were once used by Rancheria ancestors to grind seeds 
and medicine.
    Further, the area is an important traditional hunting ground for 
pronghorn antelope, deer, marmots, and groundhogs--traditional foods of 
Rancheria tribal members. Many historical hunting blinds and 
petroglyphs consisting of light inscriptions on rocks are located in 
the area in the Conveyance Boundary and other parts of Hidden Valley as 
well as deer and pronghorn trails. The area contains an ancient Native 
American trail with a rock alter used to pray for good hunting as well 
as projectile points and hammerstone used to make these projectiles 
along with obsidian, chert, and basalt chips. Rancheria tribal members 
continue to hunt in this area. Since time immemorial, Rancheria 
ancestors and members have conducted traditional ceremonies, including 
the Bear Dance, in this area. In addition, the remains of a historic 
Native American village, which the Maidu referred to as Supom, or 
``Groundhog,'' were located in this area.
    The Rancheria's long-term vision for the area in the Conveyance 
Boundary is to build a recreational area (soccer fields, softball and 
baseball fields, and outdoor basketball courts), Pow Wow grounds, and a 
cultural center and museum. However, because the terrain is very rocky 
and hilly, use of the land will be very limited. Please find in the 
attachments accompanying this statement a letter to Rep. Doug LaMalfa 
discussing the Rancheria's goals for use of the area in the Conveyance 
Boundary.
    The Rancheria has no intention of conducting gaming activities on 
this land, and the proposed legislation contains a gaming prohibition 
provision.
Provisions of S. 1761
    S. 1761 is modeled after Public Law 113-127, which Congress passed 
in the 113th Congress to take certain BLM land in California into trust 
for the benefit of the Shingle Springs Band of Miwok Indians. We were 
very encouraged to see passage of Public Law 113-127 last year as it 
evidenced congressional support for taking certain BLM parcels into 
trust for Indian tribes.
    Like Public Law 113-127, S. 1761 would take certain BLM land in 
California into trust for the Susanville Indian Rancheria. Further, 
similar to Public Law 113-127, S. 1761 contains a gaming prohibition, 
as mentioned above.
    The BLM Eagle Lake Field Office wrote a letter dated October 3, 
2014, to the Rancheria, which is included in our attachments, 
expressing support for having the land set forth in the Conveyance 
Boundary taken into trust for the Rancheria. We very much appreciate 
BLM's support, efforts, and collaboration with us on this bill.
    S. 1761 is slightly different from H.R. 2212 to make a minor 
technical change requested by the Bureau of Indian Affairs (BIA), 
Department of the Interior, when Mr. Mike Black, Director, BIA, 
testified at a hearing on H.R. 2212 before the House Natural Resources 
Subcommittee on Indian, Insular, and Alaska Native Affairs on June 10, 
2015. The only other difference between S. 1761 and H.R. 2212 is the 
insertion of the date of the map of December 31, 2014, which 
accompanies S. 1761 and which is included in our attachments to this 
statement. Our goal is for these two minor changes to be made when H.R. 
2212 is marked up in the House Natural Resources Committee so that H.R. 
2212 and S. 1761 can be identical. We understand that the House Natural 
Resources Committee anticipates including H.R. 2212 in its mark up 
scheduled for later this afternoon and tomorrow morning.
Conclusion
    S. 1761 would allow the Rancheria to reacquire ancestral homelands 
taken from us due to misguided historical federal and state policies 
and allow us to protect areas of cultural, archeological, and 
historical importance to us. The Rancheria is thankful for the 
Committee's efforts to hold this important hearing on S. 1761. We 
respectfully urge swift enactment of this bill.
    Attachments 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                                 ______
                                 
 Prepared Statement of Leona A. Ike, Member of the Confederated Tribes 
                            of Warm Springs
    I am Leona A. Ike of the Confederated Tribes of Warm Springs in the 
great state of Oregon. I am a direct descendant of the Treaty Chiefs of 
Warm Springs and Yakama Nation who originate from the Columbia River. 
My father was head chief of the Mid-Columbia River until his death in 
2003.
    I must relay a concern over this bill and I am obligated under our 
Covenant with our Creator to pass this on to you. Our tribal people 
have had this governed Covenant since the Creation of our peoples:
    ``Tribes gave their eternal spiritual promise to our Creator to 
always protect our Sacred Water and our lands and all that dwell within 
or reside upon our water and lands that includes our salmon and fish, 
small and big game, roots, medicines, rivers, small streams and all 
other natural resources and other life. We are governed by our Covenant 
to protect our people, from the oldest elder to the newest conceived 
child and all those who passed on to eternal life.''
    These words or words to this reference can be found in Treaties. 
Chiefs, like my father, advocated for the protection of our Covenant 
always. In President Clinton's second term and at the inauguration 
hosted by Tribal Leaders, my father Chief Frederick Ike Sr. was asked 
to sing the ceremonial song to honor our President.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                             Michael Smith
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
